 +"~ :òERVIC¿,,s




( -­
,~ ~~t­
  .,/iVd30l
                      DEPARTMENTOF
                      DEPARTMENT OFHEALTH
                                   HEALTH&&HUMAN
                                            HUAN SERVICES	
                                                 SERVICES	                                                      Office of
                                                                                                                Office of Inspector
                                                                                                                          Inspector General


                                                                                                                Washington,
                                                                                                                Washington, D.C.
                                                                                                                            D.C. 20201
                                                                                                                                 20201


                                                                SEP
                                                                SEP 116 2008
                                                                      6 2008





              TO:
              TO:	                           C. Schneider
                                      Daniel C.
                                      Acting Assistant Secretary for Children and Families


              FROM:
              FROM:	                  Daniel
                                      Daniel        R.
                                             R. Levinson    ~     I. ~
                                                            Levinson ~ i. ~
                                      Inspector General


              SUBJECT:                Review
                                      Review of
                                  for Needy Families Basic
                                                 of Improper Temporary Assistance for
                                      Assistance Payments in Minnesota for April 1, 2006, Through March 31, 2007
                                      (A-07-07-01045)


              Attached is an advance copy of our final report on improper Temporary Assistance for Needy
              Families (TANF)
              Families  (TANF) basic
                                 basic assistance
                                       assistance payments
                                                  payments inin Minnesota
                                                                Minnesotafor
                                                                          forApril
                                                                              April 1,1,2006,
                                                                                        2006, through
                      31, 2007.
              March 31,   2007 . We will issue this report to the Minnesota Department of of Human Services
              (the State agency)
                         agency) within  5 business  days. The
                                           business days. The   Administration for Children   and Families
              (ACF) and the Office ofof Management and Budget requested this review.

              The
              The TANFTANF       program,
                       program, which the Federalwhich
                                                  and State the   Federal
                                                             Governents 	  and State Governments jointly
                                                                                                    jointly fund  andadminister,
                                                                                                             fud and  administer, is

                                                                                                                                  is
              a block grant program that provides eligible families with work opportunities and other
              assistance, including basic assistance payments for such ongoing basic needs as food,
              assistance,
              clothing, shelter,
              clothing,      shelter, and and utilities.
                                                 utilities. Federal
                                                                 Federal and
                                                                          and State
                                                                              State laws,
                                                                                     laws, regulations,
                                                                                           regulations, and other requirements
              establish TANF eligibility, payment, and documentation requirements.

              Our objectives were to determine whether the State agency (1) made TANF basic assistance
              payments to or on behalf of
                                        of recipient families in accordance with Federal and State
              requirements and adequately documented eligibility and payment determinations and
              (2) accurately reported basic assistance expenditures
                                                       expenditures to ACF.

               F orthe
               For  theperiod
                       period April
                               April 1,
                                     1, 2006,
                                        2006, through March 31, 2007, the State
                                                                          State agency
                                                                                agency made
                                                                                       madesome
                                                                                             someTTANF
                                                                                                    ANF
               basic assistance payments that did not meet Federal
                                                           Federal and
                                                                   and State
                                                                        State requirements.
                                                                              requirements. The
                                                                                            The State
                                                                                                State agency
                                                                                                      agency
               adequately documented eligibility and payment determinations and accurately reported basic
               assistance expeiiditures
                          expenditures to ACF.

               We did not identify any e.t;rors in 136 of the 150 payments
               We did not identify any ei;ors in 136 of 
           payments in our statistical sample.
                                                                                                sample. However,
                                                                                                         However,
               the remaining 14
                              14 payments were improper because the recipient families were ineligible
                                                                                                   ineligible for
               T ANF basic
               TANF   basic assistance
                            assistance or
                                       or because
                                          because the State agency improperly calculated the payments.
                                                                                                  payments.
               Based on our sample results, weweestimated
                                                  estimated that
                                                             that the
                                                                   the overall
                                                                       overall TTANF
                                                                                 ANF improper payment
                                                                                                payment rate
                                                                                                          rate was
                                                                                                               was
Page 2 – Daniel C. Schneider


5.5 percent of the Federal dollars expended and 9.3 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency
paid $4,848,437 (Federal share) for 28,447 overpayments.

We recommend that the State agency:

   •   use the results of this review to help ensure compliance with Federal and State TANF
       requirements by (1) reemphasizing to recipients the need to provide accurate and
       timely information, (2) requiring its employees to verify eligibility information, and
       (3) applying required sanctions;

   •   determine the current eligibility of all recipients identified in this review as improperly
       enrolled in the TANF program and ensure that further assistance is denied for those
       who remain ineligible; and

   •   recalculate assistance payments for all recipients identified in this review as having
       received improperly calculated payments.

In written comments on our draft report, the State agency agreed with our recommendations
and provided information on steps that it had already taken.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov or Patrick J. Cogley, Regional Inspector General for Audit
Services, Region VII, at (816) 426-3591 or through e-mail at Patrick.Cogley@oig.hhs.gov.
Please refer to report number A-07-07-01045.


Attachment
(,:!-
 /)
..,-' ".",''''~


(~4t­
~'.. ::

 '"
      ~"I:.:i(1
                           DEPARTMENT OF
                                      OF HEALTH
                                         HEALTH &
                                                & HUMAN
                                                  HUMAN SERVICES
                                                        SERVICES
                                                                                                                   Offce
                                                                                                                   Office of
                                                                                                                          of Inspeclor
                                                                                                                   Offices of
                                                                                                                              Inspeclor General
                                                                                                                                        General
                                                                                                                            of Audit Services


                                                                                                                   Region VII
                                                                                                                          VII
                                                                                                                                     Services




                                                                                                                   601 East
                                                                                                                       East 12th
                                                                                                                             12th StreBt
                                                                                                                                  Streel
                                                                                                                   Room 284A
                                                                      SEP 22 33 2008
                                                                      SEP        2008                              Kansas City,
                                                                                                                          City. Missouri
                                                                                                                                Missouri 64106
                                                                                                                                         64106



                  Report Number: A-07-07-01045
                         Number: A-07-07-01045

                  Mr. Cal R. Ludeman
                  Commissioner
                  Minnesota Department
                  Minnesota             ofHuman
                             Departent of Human Servces
                                                Services
                  P.O. Box 64998
                            64998
                  St. Paul~
                  St. Paul~Minnesota
                            Minesota 55104-0998
                                     55104-0998

                  Dear Mr. Ludeman:

                  Enclosed is the U.S. Department of Health
                  Enclosed is the u.s. Deparent of                        Health     and Services
                                                                                 and Human Human         Office of 
(HHS), Office of Inpector
                                                                                                      Services
                                                                                                  (HHS),                             Inspector
                  General (GIG), (GIG),finalfial report
                                                   report entitled
                                                              entitled "Review of hnproper Temporary      Temporar Assistance
                                                                                                                        Assistance for
                                                                                                                                    for Needy
                                                                                                                                        Needy
                  Families
                  Familes         Basic Assistance
                           Basic Assistace Payments in Minesota for April 
 in Minnesota for April 1,2006,
                                                            Payments                                         1, 2006, Through
                                                                                                                       Through March 31, 2007."
                  We
                  We wil will
                          forwardforward
                                  a copy of 
 a copy ofthis  ths report
                                                                   report to to the
                                                                                the HHS action          offcial noted
                                                                                             action official       noted on
                                                                                                                         on the
                                                                                                                            the following
                                                                                                                                following page
                                                                                                                                          page for
                  review
                  review and   and   any   action     deemed       necessary.
                                                      deemed necessar.

                  The HHSHHS action
                                  action official
                                            official willwil make fial  finaldetermination
                                                                                determinationasastotoactions
                                                                                                      actionstaken
                                                                                                               takenononall
                                                                                                                         allmatters
                                                                                                                             matters reported.
                                                                                                                                      reported.
                  We    request     that   you    respond      to  this  official    within
                  We request that you respond to this offcial with 30 days from the date of 30 days  from  the  date of this letter.
                                                                                                                             letter. Your
                  response shouldshould present
                                            present any        commentsor
                                                        any comments            oradditional
                                                                                    additiona information   that you
                                                                                              inormation that    you believe
                                                                                                                      believe may
                                                                                                                               may have a
                  bearing on
                  bearng       on the final determination.

                  Pursuant
                  Pursuant to theto the principles
                                  priciples of        of the     Freedom
                                                           the Freedom of 
     Information Act,
                                                                             of Information Act,55U.S.C.
                                                                                                    D.S.C. §§552,
                                                                                                             552,as
                                                                                                                  asamended
                                                                                                                     amendedby by
                  Public Law 104-231, GIG        OIG reports generally are made available to the public to the    the extent the
                  information
                  information is     is not
                                         not subject
                                               subject to   exemptionsin
                                                        to exemptions       inthe
                                                                               theAct
                                                                                   Act(45
                                                                                       (45CFR
                                                                                           CFRpart
                                                                                                 par 5). Accordingly, this report
                                                                                                     5). Accordingly,
                  will
                  will be be posted
                              posted on on the
                                             the Internet
                                                 Internet at at http://oig.hhs.gov.
                                                                 htt://oig.hhs.gov.



                  If you have any questions
                                  questions or
                                            or comments
                                                comments about
                                                           about this report, please do not hesitate
                                                                  ths report,               hesitate to call me, or
                  contact
                  contact Chris Bresette, Audit
                          Chrs Bresette,  Audit Manager,            426-3591 or
                                                Manager, at (816) 426-3591     or through
                                                                                  through e-mail
                                                                                          e-mail at
                  Chris.Bresette@oig.hhs.gov.    Please refetto
                  Chris.Bresette(foig.hhs.gov. Please   refetto report number    A-07-07-01045 in
                                                                        number A-07-07-01045      in all
                  correspondence.




                                                                           c-~Sincerely,



                                                                                      J. Cogley
                                                                              Patrck J.
                                                                              Patrick
                                                                              Regional Inspector General
                                                                              Regional
                                                                                for Audit Servces
                                                                                          Services


                   Enclosure
Page 2 – Mr. Cal R. Ludeman


Direct Reply to HHS Action Official:

Ms. Joyce A. Thomas
Regional Administrator
Administration for Children and Families
233 North Michigan Avenue, Suite 400
Chicago, Illinois 60601-5519
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF IMPROPER
TEMPORARY ASSISTANCE FOR
   NEEDY FAMILIES BASIC
  ASSISTANCE PAYMENTS IN
MINNESOTA FOR APRIL 1, 2006,
 THROUGH MARCH 31, 2007




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-07-07-01045
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                            EXECUTIVE
                                            EXECUTIVE SUMMARY
                                                      SUMMARY

BACKGROUND
BACKGROUND

The Temporary Assistance for Needy Families (T
                                            (TANF)  program, aa block
                                               ANF) program,    block grant
                                                                      grant program,
                                                                            program,
provides eligible families with           with work
                                                  work opportunities
                                                         opportunities and
                                                                       and other
                                                                           other assistance, including
                                                                                             including basic
                                                                                                       basic
assistance payments for such ongoing basic needs as food,                food, clothing,
                                                                               clothing, shelter,
                                                                                         shelter, and
                                                                                                  and utilities. The
                                                                                                      utilities. The
Federal and         State    Governments            jointly fund
             and State Governents jointly fund and administer theand administer the TANF   program.   The
                                                                                           program. The
Administration
Administration           for
               for Children and Children
                                Families (ACF),and
                                                Offce Families
                                                      of       (ACF), Office of Family Assistance, administers
                                                                                                     administers the
                                                                                                                  the
program        at  the
program at the Federal   Federal      level.
                                     leveL.

Federal and State laws, regulations, and
                                      and other
                                           other requirements
                                                  requirements establish
                                                                 establish TANF
                                                                            TANF eligibility,
                                                                                  eligibility, payment,
                                                                                               payment,
and documentation requirements. To  Tobebeeligible
                                            eligiblefor
                                                     forTANF,
                                                         TANF, aa needy
                                                                   needy family
                                                                           family must,
                                                                                  must, among
                                                                                        among other
                                                                                                 other
requirements, include a minor child oror pregnant
                                         pregnant woman,
                                                    woman, not exceed established timetime limits
                                                                                            limits for
                                                                                                    for
receiving assistance, engage in work activities, not exceed income and resource thresholds
established by the State, meet citizenship and residency requirements, submit a written
application for benefits, and furnish the Social Security number
                                                            number of of each
                                                                         each family
                                                                              family member.
                                                                                      member. TheThe
State must maintain records on the provision
                                     provision ofof assistance, including facts to support
                                                                                   support eligibility
                                                                                             eligibility
and payment determinations.

In Minnesota, the Department Department of       ofHuman
                                                     HumanServices
                                                                 Services (the
                                                                           (the State
                                                                                Stateagency)
                                                                                      agency) administers
                                                                                                administersthetheTTANF
                                                                                                                   ANF
program through its county offices. The                    Thecounty
                                                                 county offices
                                                                         offices determine
                                                                                 determine the
                                                                                             the eligibility
                                                                                                 eligibility of
                                                                                                             of applicants
                                                                                                                applicants and
the   payment
the payment          amounts
            amounts for            for basic
                        basic assistance.         assistance.
                                          For the period April 
   For the period April 1,1, 2006,
                                                                                             2006, through March 31, 2007,
the State agency made 304,790 monthly basic                      basic assistance payments totaling $104,168,618
($88,543,325
($88,543,325 Federal   Federal share)
                                    share)totoor    oron onbehalf
                                                             behalfdfTANF      recipients.
                                                                     öfTANF recipients.

ACF and the Office of Management and Budget (OMB) requested this review.

OBJECTIVES

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments
payments toto or on behalf of recipient families in accordance with Federal and State requirements
and adequately documented eligibility and payment determinations and (2) accurately reported
basic assistance expenditures to ACF.

SUMMARY
SUMMARY OF
        OF FINDINGS

 For
 For thethe  period
         period April 
 April 1,
                              1, 2006,
                                 2006, through
                                        through March
                                                March 31,2007,       State agency
                                                      31,2007, the State   agency made some TANF basic
 assistance
 assistance payments
                  payments that
                              that did
                                   did not
                                       not meet
                                           meet Federal
                                                Federal and
                                                        and State
                                                            State requirements.
                                                                   requirements. The State agency
 adequately
 adequately documented
                   documented eligibility and payment determinations and accurately reported basic
 assistance
 assistance expenditures to ACF.

 We
 We did did  not identify
        not identify             any
                     any errors in     errors
                                   136 of 
              the 150
                                               in 136 of the 150 payments
                                                                  payments inin our
                                                                                our statistical
                                                                                    statistical sample.
                                                                                                 sample. However, the
                                                                                                                   the
 remaining
 remaining        14   payments        were   improper  because  the recipient families  were   ineligible for TANF
                                                                     recipient families were ineligible for T ANF
 basic
 basic assistance
          assistance or    or because
                               because the  the State agency
                                                      agency improperly
                                                              improperly calculated
                                                                           calculated the
                                                                                       thepayments.
                                                                                           payments. Based on ourour
            results, we estimated that the overall TANF improper payment rate was 5.5
sample results,                                                                                       5.5 perce'nt ofthe
                                                                                                          perce'nt ofthe
Federal      dollars
Federal dollars expended expended        and 9.3 percent of the
                         and 9.3 percent of                        number
                                                             the number of
   of basic assistance payments made for
the I-year audit period. Specifically, Specifically, we
                                                     we estimated
                                                         estimated that that the
                                                                             the State
                                                                                 State agency paid $4,848,437
(Federal      share)
(Federal share)          for  28,447       overpayments.

RECOMMENDATIONS

We recommend that the State agency:

     •.    use the
           use  the results
                     results of
                             of this review
                                     review to
                                            to help
                                               help ensure
                                                    ensure compliance with
                                                                      withFederal
                                                                           Federal and
                                                                                   and State
                                                                                       State T ANF
                                                                                             TANF
           requirements by (1) reemphasizing to recipients the need to provide accurate and timely
           information, (2) requiring its employees to verify eligibility information, and (3) applying
           required
           required sanctions;
                      sanctions;



     •.    determine the current eligibility of
                                             of all recipients identified in this review as improperly
           enrolled in the T ANF program
                           TANF   program and
                                            and ensure
                                                 ensure that
                                                         that further
                                                              further assistance is denied for those who
           remain ineligible; and

     •.    recalculate assistance payments for all recipients identified in this review as having
           received improperly calculated payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
provided information on steps that it had already taken. taken. The
                                                                The State
                                                                     State agency
                                                                           agency also expressed its
concerns about developing aa national
                               national TTANF
                                            ANF payment error rate and about posting our individual
State reports
State reports on
              on the
                 the Internet
                     Internet before
                               before the
                                       the eight-State
                                            eight-State review
                                                           review process
                                                                  process is
                                                                           is complete.
                                                                              complete. The
                                                                                        The State
                                                                                            State
agency's comments
          comments are
                     are included
                          included in
                                    in their
                                        their entirety
                                               entirety as
                                                        as Appendix
                                                            Appendix E.
                                                                      E.

OFFICE OF INSPECTOR
          INSPECTOR GENERAL
                    GENERAL RESPONSE
                            RESPONSE

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the
The Improper Payments Information Act of 
                                               the annual
amount of improper payments in their programs
                                         programs and to
                                                      to report
                                                         report that
                                                                that estimate
                                                                     estimate to
                                                                              to Congress.
                                                                                 Congress. ACF
                                                                                           ACF
and OMB requested this review
                          review of
                                 ofthe
                                    the TTANF
                                           ANF program for fiscal year 2008 performance and
accountability reporting.

With respect to posting reports on the Internet,
                                       Internet, the Consolidated Appropriations Act
                                                                                   Act of
                                                                                       of 2008
                                                                                           2008
(Public Law
(Public Law 110-161),
             110-161), section
                       section 746,
                                746, requires
                                     requires that
                                              that each
                                                   each Office
                                                        Offce ofofInspector
                                                                   Inspector General
                                                                             General post
                                                                                     post on
                                                                                          on its
                                                                                             its
Web site any public report or audit issued
                                    issued within 1I day
                                                     day of
                                                         of its release.




                                                            11
                                                            11
                                                   T ABLE OF CONTENTS
                                                   TABLE

                                                                                                                                         Pa2e

INTRODUCTION................................................................................. .........................................11
INTRODUCTION

          BACKGROUND
          BACKGROUND................................................................................................................ .1
       1
                    Improper        Payments
                    Improper Payments Information ActInformation
                                                      of          Act of 2002 ..................:.......................................1
                                                                                                      :
                                       1
                    Temporary Assistance for Needy Families Program ...............................................11

                    Minnesota's Temporar
                    Minnesota's          TemporaryAssistance
                                                         Assistancefor forNeedy
                                                                           NeedyFamilies
                                                                                     FamiliesProgram...........................2
                                                                                                     Program                                   2
                    Federal and State Requirements Related to Temporary Assistance for Needy
                        Families Basic Basic Assistance............................................................
                                                 Assistance                                                         .............. ....... ...33

          OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................3
                                                   METHODOLOGY                                                                               .3
               Objectives
               Objectives ......................... ............................... ...................................... ...... ............33
               Scope
               Scope....................................................................................................................... 3  3

               Methodology......................... ............................................................................:~:~....33
               Methodology

FIND INGS AND RECOMMENDATIONS
FINDINGS      RECO MMENDA TIO NS.................................................................................55

          IMPROPER  PAYMENTS............ ............................................ ........ ......... ..........................66
          IMPROPER PAYMENTS
               RecipientFamilies
               Recipient FamiliesWere
                                  Were     Ineligible.............. """"'"'''''''''''''''''''''''''''''''''''''''''''''' ...6 6
                                       Ineligible
               Payments Were Calculated
                             Calculated Improperly.............................................
                                           Improperly                                                      .......................88

          CONCLUSION
          CONCLUSION.................................................. ......................................................... ..... ....99

           RECOMMENDATIONS
           RECOMMENDATIONS .................... .... ..... .................................................................... ....99

           STATE AGENCY
                 AGENCY COMMENTS........................
                        COMMENTS                         .... ... .........................................................99

           OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................10

                                                                                                       .1 0

APPENDIXES

           A - FEDERAL
               FEDERAL REQUIREMENTS
                        REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
                                                          ASSISTANCE FOR
                 NEEDY FAMILIES BASIC ASSISTANCE

           B - STATE
               STATE REQUIREMENTS
                     REQUIREMENTS RELATED
                                   RELATED TO TEMPORARY ASSISTANCE FOR
                 NEEDY FAMILIES BASIC ASSISTANCE

           C -- SAMPLE DESIGN AND METHODOLOGY

           D - SAMPLE
               SAMPLE RESULTS
                      RESULTS AND ESTIMATES

           E -- STATE AGENCY COMMENTS



                                                                      ii
                                                                      111
                                                      INTRODUCTION
                                                      INTRODUCTION


BACKGROUND
BACKGROUND


The Administration for Children and Families     Families (ACF) and the Office of
                                                                                of Management
                                                                                   Management and
                                                                                              and Budget
                                                                                                   Budget
(OMB)        requested       this
(OMB) requested this review of 

                                  review of the Temporary  Assistance  for Needy Families (TANF) program
                                                                                                 program
for fiscal year 2008 performance and         and accountability
                                                 accountability reporting.
                                                                reporting.

Improper
Improper Payments Information Act
         Payments Information Actof
                                  of2002
                                     2002

The Improper Payments Information Act of 2002 (Public Law 107-300) requires Federal
The Improper Payments Information Act of 


agencies to estimate and report to Congress on the annual amount of         of improper payments inin their
programs,
programs,        theofcauses
          the causes   
     of the improper payments, and the
                                                             the corrective
                                                                 corrective actions
                                                                             actions taken.
                                                                                     taken. Section
                                                                                            Section 2(d)(2)
                                                                                                    2(d)(2)
of this Act
of         Act (31     U.S.C. §§3321)
                  (31 U.S.C.     3321)states
                                       states that
                                              that an improper payment:

            ...
            . . . (A)
                  (A) means
                      means any
                             any payment
                                 payment that
                                          that should
                                               should not
                                                       not have
                                                           have been
                                                                been made
                                                                      made or
                                                                           or that
                                                                              that was  made in
                                                                                   was made   in
            an incorrect amount (including overpayments and underpayments) under statutory,
            contractual, administrative, or other legally applicable requirements; and
            (B) includes
            (B)            any payment
                  includes any payment to  an ineligible
                                       to an  ineligible recipient,
                                                         recipient, any
                                                                    any payment for an
                                                                        payment for an ineligible
                                                                                       ineligible
            service, any duplicate payment, payments for services not received, and any
            payment that does not account for credit for applicable discounts.

To clarify this definition, OMB Circular A-123, Appendix C, part LA, states that "when an
agency's review is unable to discern
                              discern whether
                                      whether aa payment
                                                 payment was
                                                         was proper
                                                             proper as
                                                                    as aa result
                                                                          result of
                                                                                 ofinsufficient
                                                                                    insufficient or
                                                                                                 or
lack of documentation, this payment must also be considered an error."

Temporary Assistance for
Temporary Assistance for Needy
                         Needy Families
                               Familes Program

The Personal
        PersonalResponsibility
                     Responsibilitýand   andWork
                                              WorkOpportunity
                                                   Opportunity Reconciliation
                                                                Reconciliation Act
                                                                                Act of
                                                                                    of 1996 (Public Law
104-193)     established
104-193) established the TANF   the TANF    program to help families
                                                    to help families progress  from welfare to self-
                                                                                               self­
sufficiency.
sufficiency. The Federal  Federal andand State
                                          StateGovernments  jointlyfund
                                               Governents jointly   fund and
                                                                         and administer
                                                                              administer the program.
                                                                                             program. At
                                                                                                      At the
Federal
Federal    level,
           level, thethe  ACF
                      ACF Offce of Office of Family Assistance
                                                    Assistance administers
                                                               administers the
                                                                            the program.
                                                                                 program. Within broad
national guidelines established by Federal statutes, regulations, and other requirements, States
have significant flexibility in designing their programs and determining eligibility requirements.

The
The Federal
       FederalGovernment
                     Governent provides providesTTANF        funds in
                                                       ANF funds      in the
                                                                          the form
                                                                              form ofofblock
                                                                                        blockgrants,
                                                                                               grants, which
                                                                                                       whichare
                                                                                                              are specified
                                                                                                                   specified
amounts directly allocated to States. To                To be
                                                            be eligible
                                                                eligible for
                                                                           for aa TTANF
                                                                                    ANF   block grant,  a State must  submit
a State plan to    to ACF
                       ACF within the 27-month period prior to the Federal fiscal year in which the
funds
funds are are toto be
                    beprovided.
                         provided. The State     State plan is an
                                                               an outline
                                                                   outline of     how each
                                                                              of how  each State
                                                                                             State will operate its TTANF
                                                                                                   will operate       ANF
program,
program, including
               including program administration, criteria for determining eligibility and delivering
benefits,
benefits, and  and assurances
                     assurances againstagainst fraud
                                                   fraud and
                                                         and abuse.
                                                              abuse. ACF reviews the State plan for completeness
but does not issue an approval.   approvaL.        ACF  has  stated   that a determination that a plan is complete does
                                                                    11
not   constitute
not constitute        its endorsement
               its endorsement of State policies.of
                                                  
 State policies.




 ISee
 ¡See 6464 Federal
         Federal      Register
                 Register         17720,
                          17720, 17847 (April17847 (April 12,
                                                          12, 1999).
                                                              1999).





                                                                        11
Pursuant       to section
Pursuant to section 401 of 
   401 of the Social Security Act (the Act), the TANF program provides
assistance and   and work opportunities to needy   needy families.
                                                          families. As a general rule, States must useuse the funds
                   families with a minor child or pregnant woman
for eligible families                                             woman and and for
                                                                                for one
                                                                                    one of the four purposes
                                                                                                     purposes of
                                                                                      2
the T    ANFprogram,
      TANF        program, including
                                including providing
                                            providing assistance
                                                       assistance to
                                                                   to needy
                                                                      needy families.
                                                                             families.2 Federal regulations
(45   CFR §§ 260.31(a)(1))
(45 CFR           260.31(a)(l)) define
                                     defineassistance
                                             assistance as
                                                         as cash,
                                                            cash,payments,
                                                                  payments,vouchers,
                                                                               vouchers,and
                                                                                         andother
                                                                                               otherforms
                                                                                                     forms of of
benefits designed to meet a family's     family's ongoing
                                                  ongoing basic
                                                            basic needs,
                                                                  needs, including,
                                                                          including, but
                                                                                     but not
                                                                                         not limited
                                                                                              limited to,
                                                                                                       to, food,
                                                                                                            food,
               shelter, and
clothing, shelter,           and utilities.
                                 utilities. Such
                                            Such assistance
                                                  assistance is referred to as "basic assistance."

States may use various funding options to provide                   provide benefits
                                                                              benefits and
                                                                                       and services
                                                                                           services under
                                                                                                     undertheir
                                                                                                            theirTTANF
                                                                                                                   ANF
programs (e.g., (e.g., commingled
                          commingled Federal   Federaland   andState
                                                                   Statefunds
                                                                           fuds or segregated State
                                                                                                State funds).
                                                                                                      funds). The
                                                                                                               The funding
                                                                                                                    funding
option chosen determinesdetermines what   what specific
                                                   specific requirements
                                                                 requirementsapply
                                                                                 applyandandwhether
                                                                                             whetheraaparticular
                                                                                                         particularuse
                                                                                                                    useof
                                                                                                                        offunds
                                                                                                                           fuds
is  appropriate.         Commingled            Federal      and    State
is appropriate. Commingled Federal and State funds are subject to Federal funds are subject  to Federal  laws  and
requirements.

            Temporary Assistance
Minnesota's Temporary Assistance for Needy Familes Program
                                     Needy Families

In Minnesota, the Department
                  Department of of Human
                                   Human Services
                                           Services (the
                                                     (the State
                                                          State agency)
                                                                agency) administers
                                                                        administers the
                                                                                     theTTANF
                                                                                           ANF
program through its
                 its county
                     county offices.
                             offices. During
                                      During our audit period, the State agency used a
computerized system, MAXIS, to process, pay, and track TANF  T ANFbasic
                                                                     basicassistance
                                                                           assistance benefits.
                                                                                      benefits. Under
the Minnesota Family Investment Program (MFIP),
                                             (MFIP), the
                                                       the amounts paid to recipient families consist
of
of both T ANF basic
        TANF   basic assistance and
                                 and food support. 3
                                     food support.3

          agency has
The State agency   has opted to
                             to commingle
                                commingle Federal
                                           Federal and
                                                    and State
                                                         State funds
                                                               funds in
                                                                     in its
                                                                         its TANF
                                                                             TANF program.
                                                                                   program. During
                                                                                            During
our audit period, the State agency, on average, funded 85
                                                        85 percent of its basic assistance
expenditures from the Federal
                        Federal T
                                TANF
                                  ANF block
                                       block grant,
                                             grant, and
                                                    and the
                                                        the State agency paid the remaining
15 percent.
15 percent.



The State agency requires individuals
                              individuals toto submit
                                                submit written
                                                         written applications
                                                                  applications for
                                                                                 for TTANF
                                                                                       ANF basic assistance.
The State agency's county
                      county offices
                               offices review
                                       review thethe applications
                                                     applications andand determine
                                                                          determine whether
                                                                                       whether individuals
                                                                                                 individuals
meet TANF eligibility requirements.
                          requirements. ForFor each
                                                 each applicant
                                                        applicant determined eligible, the State State agency
enters applicant information in MAXIS
                                    MAXIS to   to process
                                                  process thethe assistance
                                                                 assistance payment
                                                                              payment toto the
                                                                                            the family.
                                                                                                family. As part
of                                 applicant must
of the application process, the applicant      must attend
                                                      attend TTANF
                                                                 ANF assistance orientation classes, which
inform the applicant of of his or her responsibility to notify the State agency of      of any changes that
might affect eligibility
             eligibilityororpayment
                             paymentstatus.
                                        status. Pursuant
                                                  Pursuant to Minnesota Statutes
                                                                              Statutes (MINN.     STAT.
                                                                                         (MIN. STAT.
§ 256J.30,
  256J.30, subdivision
            subdivision 9), the
                              the applicant also
                                               also must
                                                     must submit
                                                            submit aa monthly
                                                                       monthly report to inform
                                                                                             inform the
                                                                                                     the State
                                                                                                         State
agency of any
           any updated
                updated information
                           information necessary
                                         necessar to  to redetermine
                                                          redetermine the
                                                                        the individual's
                                                                             individual'seligibility.
                                                                                            eligibility.




2The other purposes ofTANF are to (1) end the dependence of 

2 T heother purposes ofTANF are to (1) end the dependence of needy     parents
                                                              needy parents      by promoting job
                                                                            by promoting        job preparation,
                                                                                                    preparation, work,
                                                                                                                 work,

 and marriage; (2) prevent and reduce out-of-wedlock pregnancies; and (3) encourage the  the formation
                                                                                             formation and
                                                                                                        and maintenance
                                                                                                            maintenance
 of                              401 of
 of two-parent families (section 401 of the Act).

 3The State
 3The    State agency
                agencyadministers
                           administersMFIPMFIPfood
                                                 foodsupport
                                                       supportthrough
                                                                throughU.S.
                                                                        U.S.Department
                                                                             Departent of
                                                                                        ofAgriculture
                                                                                          Agriculturegrants
                                                                                                      grants and
                                                                                                              and State
                                                                                                                  State funds.
                                                                                                                         funds.
 Food    support
 Food support       payments
              payments           part ofnot a part of this review.
                       were not awere




                                                                 2

Federal and State Requirements
                  Requirements Related
                               Related to Temporary
Assistance for Needy Familes
                     FamiliesBasic
Assistance for Needy 
       Basic Assistance
                                   Assistance

The State agency must comply with certain Federal requirements in determining and
redetermining eligibility   andpayment
               eligibility and  payment amounts.
                                          amounts. Federal
                                                      Federal regulations
                                                               regulations (45 CFR §§ 205.51-205.60
          260-264) set
and parts 260-264)   setforth
                          forthbasic
                                basicTTANF
                                        ANF eligibility requirements that States must impose on
                                                  limits and work requirements for
families receiving assistance, including time limits                              for adults.
                                                                                      adults.
Appendix A ofof this report
                     report contains
                             contains the
                                       the specific
                                            specific Federal
                                                     Federal requirements
                                                              requirementsrelated
                                                                            relatedto
                                                                                    toTTANF   basic
                                                                                        ANF basic
assistance.

In addition, the Minnesota State State plan; MINN.STAT.,
                                       plan; MIN.  STAT., Chapter 256J; and State guidance establish
TANF
T              assistance requirements.
  ANF basic assistance      requirements. TheThe State
                                                 State plan
                                                       plan incorporates
                                                             incorporates Federal
                                                                           Federal requirements
                                                                                   requirements and
                                                                                                  and
establishes all other eligibility requirements, such as income and resource levels and standards of
need, 4 as
need,4  as set
           set forth
               forth in
                      in State
                         State law
                                law and
                                     and guidance.  Appendix B
                                          guidance. Appendix    B of
                                                                  of this report
                                                                          report contains
                                                                                 contains the
                                                                                           the specific
                                                                                               specific
                       related to
State requirements related      to TTANF
                                     ANF basic assistance.

OBJECTIVES, SCOPE,
            SCOPE, AND
                   AND METHODOLOGY

Objectives

Our objectives were to determine whether the State         State agency
                                                                 agency (1) made TANF basic assistance
payments
payments        tobehalf
         to or on   or onof 
 behalf of recipient families in accordance with Federal and State
                                                                                          State requirements
                                                                                                requirements
and adequately documented eligibility and payment determinations and (2) accurately reported
basic assistance expenditures to ACF.

Scope

Our audit period covered April 1,          1, 2006, through March 31, 2007
                                                                        2007. . We did not review
                                                                                           review the overall
internal     control
internal control structurestructure
                           of 
     of the Minnesota TANF
                                                       TANF program.
                                                             program. Rather,
                                                                         Rather, we
                                                                                 we reviewed
                                                                                    reviewed the State
agency's procedures relevant to the objectives ofthe      ofthe audit.
                                                                 audit.

We performed fieldwork from August through December 2007 at the State
                                                                State agency
                                                                      agency in
                                                                             in St. Paul,
Minnesota.

 Methodology

 To accomplish our objectives, we:

       •.    reviewed Federal and State laws, regulations, and other requirements related to T
                                                                                             TANF
                                                                                               ANF
             basic assistance eligibility and payment amounts;



 4The State plan sets the standard of 

 4 T he
      State plan sets the standard of need   based
                                      need based     onnumber
                                                 on the   the number
                                                              of 
   of household members and uses the standard to
 determine
 determineeligibility
            eligibility for TANF basic assistance
                            TANF basic  assistance(the  (theMinnesota
                                                              MinesotaState
                                                                       Stateplan,
                                                                             plan,Attachment
                                                                                   AttchmentC,
                                                                                             C,and
                                                                                                andMINN.
                                                                                                    MIN,
 STAT. § 256J.24).
 STAT. § 256J.24).





                                                            3

   •.        held discussions with State
                                   State officials
                                         officials to
                                                   to obtain
                                                      obtain an understanding of
                                                                               of policies, procedures,
                                                                                            procedures,
             and guidance for determining
                              detennining TTANF
                                              ANF basic assistance eligibility and payment amounts;

   •.        obtained a list
                        list of
                             of T ANF basic assistance payments for the period April 1,
                                TANF                                                 1, 2006, through
             March 31,2007,
                    31,2007, from
                                from the
                                      the State agency's MAXIS;
                                          State agency's MAXIS;

   •.        combined all payments to each recipient family in a month and obtained a universe
                                                                                      universe of
             304,790 monthly payments totaling $104,168,618 ($88,543,325 Federal share);

   •.        validated the universe of
                                    of payments, including reported expenditures; and

    •.       selected a simple random sample of
                                             of 150
                                                150 payments from the universe of
                                                                               of 304,790 monthly
             payments, as detailed in Appendix C.

For      of 
 of the 150 sampled items, we detennined
      each
For each                                      determined whether
                                                           whether the
                                                                     the corresponding
                                                                         corresponding case
                                                                                         case file
                                                                                               fie
(electronic
(electronic or paper) contained sufficient information for the State agency to have made aaTTANF
                or paper)  contained  sufficient infonnation for the  State agency to have  made     ANF
basic assistance eligibility determination
                                 detennination on the date of
                                                            of initial determination
                                                                       detennination or
                                                                                      or redetermination.
                                                                                         redetennination.
We also attempted to obtain sufficient independent information
                                                           infonnation to determine
                                                                            detennine whether the
recipient family was eligible for   for TTANF
                                          ANF basic assistance and received the proper payment amount
on the payment
           payment date
                      date selected.
                           selected. Specifically,  we determined
                                      Specifically, we detennined whether:

    •.       the case file contained a completed application from a representative of
                                                                                   of the recipient
             family;

    •.       the case
                 casefile  contained a Social Security number for each
                       fie contained                              each member
                                                                       member ofof the
                                                                                   the recipient
                                                                                       recipient family
                                                                                                 family
             and, if so, whether the Social Security Administration had issued the number to the
             family member;

    •.                     family resided in Miqnesota
             the recipient family             MiIIesota by
                                                         by checking
                                                            checking driver's
                                                                     driver's licenses,
                                                                               licenses, rental
                                                                                          rental

             agreements, or
             agreements,   or Federal,
                              Federal, State,
                                       State,or
                                              orlocal
                                                 localgovernment
                                                       governent correspondence;

                                                                  correspondence;

     •.      each family member's
                           member's identity,
                                       identity, including
                                                  including name
                                                            name and
                                                                  and age,
                                                                      age, was
                                                                           was adequately
                                                                               adequately documented
                                                                                           documented in
                                                                                                       in
                      fie (e.g., birth certificates, adoption papers, court decrees, and passports);
             the case file (e.g., birth certificates, adoption papers, court decrees, and passports);

     •.      each family member's citizenship
                                      citizenship status
                                                   status was
                                                          was adequately
                                                               adequately documented in the case fie
                                                                                                  file(e.g.,
                                                                                                       (e.g.,
             birth certificates, hospital records,
                                          records, and U.S. Citizenship and Immigration Services
             documentation) and matched information
                                              infonnation in the U.S. Citizenship and Immigration
             Services' Systematic
                        Systematic Alien
                                    Alien Verification
                                            Verification for
                                                          for Entitlements
                                                              Entitlements Program
                                                                           Programand
                                                                                   andthe
                                                                                       the Social
                                                                                           SocialSecurity
                                                                                                   Security
             Administration's Numerical Identification File;

        •.   the recipient family's
                            family's income
                                      incomeandandresources
                                                   resources were
                                                             were at
                                                                   at or
                                                                      orbelow
                                                                          belowthe
                                                                                the thresholds
                                                                                     thresholds required
                                                                                                 required to
                                                                                                           to be
                                                                                                              be
             eligible for T
                          TANF
                             ANF basic
                                  basic assistance
                                         assistance on the payment date selected by reviewing information
             from the case file, MAXIS, and the State Department of      of Employment and Economic
             Development
             Development wagewage and resource
                                        resource system,
                                                  system, including
                                                           including the Supplemental Security Income



                                                          4

         database; .
         State Data Exchange, the State Wages database, and the Unemployment Compensation
         database;

    •.   no   member
         no member of
 of the recipient family had a drug-related felony or was a fugitive felon or
         parole violator by checking State and Federal felon databases;

    •.   the recipient family complied with child support requirements by                by reviewing information
         from
         from the the   case
                  case file and file  andagency's
                                the State   the State
                                                  Division agency's
                                                           of
      Division of Child Support Enforcement;

    •.   assistance       was
         assistance was not      notto provided
                            provided                  to minor
                                       any adult member,  anyhead
                                                               adult
                                                                  of member, minor head of household, or minor
         spouse in the recipient family beyond allowable time limits by reviewing information
         from MAXIS; and

    •.   the parent or caretaker in the recipient family met work requirements by
                                                                               by reviewing the
         case file.

We     estimated,
We estimated,           foruniverse
              for the total  the total
                                     of
  universe of 304,790 TANF monthly basic assistance payments, the
total   Federal
total Federal        dollar
              dollar value of value of payments with eligibility or calculation errors.
                                                                                errors. We
                                                                                        We also
                                                                                            also estimated,
                                                                                                 estimated,
for   the
for the     total
        total       universe,
              universe,            the total number of these improper payments.
                        the total number





   addition, we determined the improper payment rate in dollars by dividing the estimated
In addition,
          Federal dollars
improper Federal  dollars by the
                             the total
                                 total Federal
                                       Federal dollars
                                               dollars in
                                                       in the
                                                          the universe.
                                                              universe. We
                                                                        We also
                                                                           also determined
                                                                                determined the
improper payment rate for the number of payments in error by dividing the estimated number of
improper payments by the total number of of payments in the universe.

We conducted
    conducted this
                this performance
                     performance audit
                                    audit in
                                           in accordance
                                               accordancewith
                                                           withgenerally
                                                                generallyaccepted
                                                                            acceptedgovernment
                                                                                      governent auditing
                                                                                                 auditing
standards. Those
standards. Those standards
                   standards require
                              require that
                                        that we
                                             we plan
                                                 plan and
                                                      and perform
                                                          perform the
                                                                   the audit
                                                                       audit to
                                                                              to obtain
                                                                                 obtain sufficient,
                                                                                        sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
      objectives. We
audit objectives.  We believe
                       believe that
                                that the
                                      the evidence
                                          evidence obtained
                                                    obtained provides
                                                              provides aa reasonable basis for our
findings and
         and conclusions based
                           based on our audit objectives.

                                 FINDINGS AND RECOMMENDATIONS

The State agency made some T    ANF basic
                              TANF   basic assistance payments that did not meet Federal and
      requirements. The
State requirements. The State
                        State agency
                               agency adequately
                                      adequately documented eligibility and payment
determinations and accurately reported basic assistance expenditures to ACF.

Of
Of the 150 payments in our statistical sample,
                                       sample, 14
                                                14 payments
                                                   payments totaling $2,386
                                                                        $2,386 (Federal
                                                                                (Federal share)
                                                                                          share) were
improper because the recipient
                     recipient families
                               families were
                                         were ineligible
                                               ineligible for
                                                           for TTANF
                                                                 ANF basic assistance or because
                                                                                           because the
State agency
      agency improperly
             improperly calculated
                         calculated the
                                    the payments.
                                         payments. WeWe did not identify
                                                                  identify any errors in the
remaining
remaining 136
           136 payments.
               payments.



Based
Based on   on our
               our sample
                   sample results,
                                results, we we estimated
                                                  estimated that  that the
                                                                       the overall T
                                                                                   TANF     improper payment
                                                                                     ANF improper     payment rate
                                                                                                                rate was
                                                                                                                     was
5.5   percent
5.5 percent of  of the    Federal
                    the Federal dollarsdollars     expended
                                        expended and 9.3 percent of and 9.3 percent of the   number
                                                                                       the number of of basic
                                                                                                        basic assistance
                                                                                                              assistance





                                                              55 

payments made for the I-year audit period. Specifically,
                                            Specifically, we
                                                          we estimated
                                                             estimated that
                                                                        that the
                                                                              the State
                                                                                  State agency
                                                                                        agency paid
$4,848,437 (Federal share) for 28,447 overpayments.
                                      overpayments.

IMPROPER PAYMENTS

The table below summarizes the eligibility and payment calculation errors noted in the
14 improper
14 improper payments in our sample.

                                           Summary of Improper Payments
                                                                                       Improper                No. of
                                                                                                               No.
                                                                                        Federal               Improper
                                           Error
                                   Type of Error
                                                                                       Payments               Payments

              Recipient families were
                                 were ineligible:
               Time limit exceeded                                                             $655                  2
               Noncompliance with work requirements                                             265

                                                                                                265                  11
               Income threshold exceeded on payment date                                        198

                                                                                                198                 i
                                                                                                                    ~
                      Subtotal                                                               $1,118                  4

              Payments were calculated improperly:
                                        improperly:
               Noncompliance with work requirements                                            $535                  5
               Incorrect household income                                                       668                  4
               Incorrect budget calculation                                                      65                -­
                                                                                                                   -.l
                       Subtotal                                                              $1,268                lQ
                      Total                                                                  $2,386                14

We    provided
We provided            each of
 on each of these errors to the State agency.
            details ondetails




          Familes Were Ineligible
Recipient Families

Pursuant to
Pursuant        to Federal
                    Federalregulations
                                  regulations (45     (45 CFR
                                                            CFR §§ 264.I(a)(I)),
                                                                         264.1(a)(I)), no State      use its
                                                                                          State may use     its Federal
                                                                                                                FederalTANF   TANF
funds     to provide
funds to provide assistance assistance
                             to a family that to  a family
                                               includes an adult that
                                                                  head ofincludes an adult head of household         or aof spouse
                                                                                                   household or a spouse    
       of the
head of 
of household who has received Federal assistance for a total of
head                                                                                            of 5 years (60 cumulative
              whether or
months, whether              or not
                                  not consecutive).
                                        consecutive). MIN.     MINN. STAT. STAT. §§256J.42,
                                                                                    256J.42,subdivision
                                                                                              subdivision1,1,states
                                                                                                                  statesthatthatunless
                                                                                                                                 unlessa a
recipient has good cause, a recipient family in which any caregiver has                          has received 60 months   months of
cash assistance funded in whole or                    or inin part
                                                               part by by the
                                                                           the TTANF
                                                                                 ANF block grant is ineligible to receive MFIP
assistance.

Federal
Federal regulations
         regulations (45   CFR § 261.
                       (45 CFR          IO(a)(l)) require
                                   261.10(a)(l))   require that
                                                            that aa parent
                                                                    parent or caretaker receiving
assistance engage in work activities when the State has determined that the individual individual is
                                                                                                   is ready
                                                                                                      ready to
do so or when he or she has received assistance for a total of      of 24 months, whichever
                                                                                    whichever isis earlier.
                                                                                                   earlier.
Section 407
         407(e)
             (e) of
                 of the
                     the Act
                         Act provides
                              provides that if a T
                                                 TANF
                                                    ANF recipient
                                                         recipient refuses
                                                                      refuses to
                                                                              to meet work requirements,
the State must either (1)
                        (l) reduce the amount of of assistance to the family pro ratarata (or
                                                                                           (or more
                                                                                               more atat the
option of the State) for any month that the recipient failsfails  to meet  work  requirements    or
(2) terminate assistance.    A  reduction or  termination
(2) terminate assistance. A reduction or termination of     ofassistance
                                                               assistance isis subject
                                                                               subject to
                                                                                        to any
                                                                                           any good
                                                                                               good cause
                                                                                                      cause or
                                                                                                             or


                                                                    6

other    exceptions
other exceptions           thatmaythe
                 that the State          State
                                     establish (45 may     establish
                                                    CFR § 261. 
                    14(a)). MIN.
                                                                     (45 CFR § 261. 14(a)).  MINN.STAT.
                                                                                                     STAT. §§256J.561,
                                                                                                              256J.561,
subdivision 2, states that all MFIP caregivers, except for those who meet the criteria established
in subdivision 3,       3, are required to        to participate
                                                       participate in
                                                                    in employment
                                                                       employment services.
                                                                                   services. Subdivision
                                                                                              Subdivision 33 states
                                                                                                             states that a
participant
participant may bemay
                   exempt be
                          from exempt       from
                                work paricipation  if 
work participation if the participant is the parent or caregiver of

a child under 12 weeks of              of age.

MIN. STAT.
MINN.  STAT. §§256J.521,
                256J.521,subdivision
                           subdivision2,2,states
                                            statesthat
                                                   thatthe
                                                        thejob
                                                            jobcounselor
                                                                counselorand
                                                                           andTANF
                                                                                TANFrecipient
                                                                                         recipientmust
                                                                                                   must
                                              includes participation
develop and sign an employment plan that includes       participation in activities and hours that meet
      requirements. Failure
State requirements.  Failure to
                              to develop
                                 develop or
                                          or comply
                                             comply with the plan activities or voluntarily quitting
suitable employment
suitable employment without
                       without good
                                good cause
                                      cause will
                                             wil result in the imposition of
                                                                           of a sanction under
  256J.46. When a recipient family
§ 256J.46.                     family receives
                                       receives its seventh
                                                    seventh sanction,
                                                              sanction,the
                                                                        thefamily
                                                                            family is
                                                                                    is no
                                                                                       no longer
                                                                                           longer eligible
                                                                                                  eligible
for TANF
    TANF assistance    (MIN. STAT.
           assistance (MINN.            256J.46,subdivision
                               STAT. § 256J.46,    subdivision l(d)).
                                                                l(d)).

Pursuant  to 45
Pursuant to  45 CFR § 263.2(b)(3),
                         263.2(b)(3), income
                                        incomeandandresource
                                                      resource thresholds
                                                                thresholds are
                                                                            are established
                                                                                established byby the
                                                                                                  the State
                                                                                                      State
     must be
and must   be included
              included inin the
                             the State
                                 Stateplan.
                                       plan. Generally,
                                              Generally, income
                                                          incomethresholds
                                                                    thresholdsvary
                                                                                var based
                                                                                     based on
                                                                                            on the
                                                                                                the number
of
of family  members in
   family members    in the household.
                              household. Federal
                                           Federal regulations (45 CFR §§   §§ 205.51 and 205.55)
          requirements for
establish requirements    for income
                               income and
                                       and eligibility
                                            eligibility verification.
                                                        verification. These regulations, which
                                                                                             which govern
the Income and Eligibility Verification System, require a State to request information from other
          to verify individuals' eligibility
agencies to                        eligibility for
                                               for assistance under the State
                                                                          State plan
                                                                                plan and
                                                                                      and the
                                                                                           the correct
                                                                                               correct
amount of assistance payments for applicants and recipients.

MIN. STAT.
MINN.      STAT. §§256J.21
                         256J.2l requires
                                      requires that that the
                                                           the State
                                                                 State agency
                                                                          agencydetermine
                                                                                      determineongoing
                                                                                                  ongoingeligibility
                                                                                                            eligibilityand
                                                                                                                        andpayment
                                                                                                                            payment
amounts       according
amounts according to a monthly to  a monthly
                               income               income
                                      test. To be eligible,      test. To
                                                            a recipient's      be ofeligible, a recipient's standard of need must
                                                                          standard
                                                                                                5
be greater than  than hishis or her gross income less income disregards.           disregards.5   In addition, the standard
                                                                                                                   standard of
                                                                                                                             of need
must     be reduced
must be reduced            based
                based on any unearnedon   any
                                      income thatunearned       income
                                                  the recipient receives.    that the recipient receives. If the monthly
                                                                          If 


income is greater than the MFIP           MFIP standard of need after deductions,      deductions, the State agency must
suspend the assistance payment for the payment month.

Of
Of the 150 sampled payments, 4 payments totaling $1,118
                                                   $1,118 (Federal share) were made to or on
behalf of recipient families who did not meet Federal and State eligibility requirements:

     •.   For two overpayments totaling $655 (Federal share), the recipient families had
                                                                                      had received
          TANF
          T ANFcash
                  cashassistance
                       assistancefor
                                  formore
                                     morethan
                                          than60
                                               60months.
                                                 months. The recipients' case
                                                                          case files
                                                                                files did
                                                                                      didnot
                                                                                          not contain
                                                                                              contain
          documentation showing that the recipients had applied for or been granted a hardship
          extension.

     •.   For one overpayment totaling $265 (Federal share), the recipient family did not comply
          with work participation requirements and did not qualify for an exemption from the State
          agency.  According to
          agency. According   to State
                                 State law
                                        law requirements,
                                            requirements, the State agency should have issued a
          seventh sanction to this family,
                                   family, which would have rendered the family ineligible for
          TANF   assistance.
          T ANF assistance.



 5Income disregards
 5Income  disregards refer
                      refer to
                             to income
                                income that
                                       that is
                                            is not
                                               not counted
                                                   counted when
                                                           when determining
                                                                determining eligibility
                                                                            eligibility and
                                                                                        and calculating
                                                                                            calculating the
                                                                                                        the payment
                                                                                                            payment

 amount.

 amount.


                                                                  7
                                                                  7

    .•	   For one overpayment totaling $198 (Federal share), the recipient family's
                                                                           family's income
                                                                                     income

          exceeded the
                   the TTANF
                         ANF basic assistance income threshold on the payment
                                                                       payment date.

                                                                                 date.

Payments Were Calculated Improperly

Federal regulations
Federal  regulations (45  CFR §§ 261.l0(a)(I))
                      (45 CFR    261.10(a)(I)) require that
                                                        that aa parent
                                                                 parentororcaretaker
                                                                             caretaer receiving
assistance engage in work activities when
                                      when the State
                                                State has determined that  that the
                                                                                the individual
                                                                                     individual is
                                                                                                 is ready
                                                                                                     ready to
                                                                                                           to
do so or when he or she has received assistance
                                       assistance for
                                                  for aa total
                                                          total of
                                                                of 24
                                                                   24 months,
                                                                      months, whichever
                                                                                  whichever isis earlier.
                                                                                                  earlier. If
an individual refuses to engage in work, the State must reduce
                                                            reduce or terminate the amount of
assistance payable to the family, subject to any good cause or other exceptions that the State    State may
                                                                                                         may
establish (45
          (45 CFR
              CFR §§ 261.14(a)).
                       261.14(a)). Under
                                   Under MINN.
                                          MIN. STAT.
                                                 STAT. §§256J.55,
                                                             256J.55,allallcaregivers,
                                                                            caregivers,unless
                                                                                          unless   exempt,
                                                                                               exempt,
must participate in employment services, modified or otherwise, while receiving MFIP       MFIP
assistance.

MINN.STAT.
MIN.   STAT. §§ 256J.521,
                 256J.521, subdivision
                            subdivision 2,
                                         2, states
                                             statesthat
                                                    thatfailure
                                                          failuretotodevelop
                                                                      developor
                                                                              orcomply
                                                                                 complywith
                                                                                          withemployment
                                                                                               employment
plan activities or voluntarily quitting suitable employment without good cause will result in the
imposition of
imposition  ofaa sanction
                 sanction under § 256J.46.
                                    256J.46. Pursuant
                                               Pursuant to to §§ 256J.46,
                                                                 256J.46,aarecipient
                                                                            recipientwho
                                                                                      whofails
                                                                                           fails without
                                                                                                 without
good cause toto meet plan requirements
                          requirements is is subject
                                             subject to
                                                      to aa sanction.
                                                            sanction. For the first occurrence of
noncompliance, the State agency must reduce the    the TANF
                                                       TANF payment
                                                                  payment by
                                                                           by 10
                                                                              10 percent.  For the second
                                                                                 percent. For       second
                                 State agency
through sixth occurrences, the State   agency must reduce the payment by 30 percent.

MINN.  STAT. §§ 256J.21
MIN. STAT.      256J.21 states
                        states that
                                that the
                                      the State
                                          Stateagency
                                                  agencymustmustdetermine
                                                                  determineongoing
                                                                             ongoingeligibility
                                                                                       eligibilityand
                                                                                                   and
payment amounts
         amounts according
                   according to
                              to aa monthly
                                    monthly income
                                                income test.
                                                         test. To be eligible, a recipient's standard
                                                                                              standard of
                                                                                                        of
need must be greater than his or her gross
                                        gross income
                                                income less
                                                          less income
                                                               income disregards.
                                                                        disregards. In addition, the
standard of need must be reduced based on any unearned income that the recipient receives.
Minnesota's  "Combined Manual,"
Minnesota's "Combined     Manual,"section
                                       section0022.12,
                                                 0022.12, states
                                                            statesthat
                                                                   thatany
                                                                        anyremaining
                                                                            remainingamount
                                                                                        amountisisthe
                                                                                                    theMFIP
                                                                                                       MFIP
grant amount.   The MFIP
      amount. The   MFIP grant
                           grant amount
                                  amount is is then
                                                then reduced
                                                      reduced for
                                                                for recoupment ofof overpayments and
food support. Any
               Anyremaining
                    remainingamount
                                amountrepresents
                                          representsthe theTTANF                      payment.
                                                              ANF basic assistance payment.

Of
Of the 150 sampled payments,
                      payments, 10 payments
                                   payments totaling $1,268 (Federal share)
                                                                       share) were made to or on
behalf of recipient families who were eligible for basic assistance but for whom payments were
calculated improperly:

     •.   For five
              five overpayments totaling $535 (Federal share), the State agency did not apply
          sanctions, which would have reduced the payments by 10 or 30 percent, for recipients
          who did not comply with work requirements and who did not qualify for an exemption.

     •.   For four
              four overpayments totaling $668 (Federal share), the State agency did not include
          earned
          earned and
                 and unearned income in the monthly income tests used to determine payment
          amounts.

     •.   For one
               one overpayment of $65 (Federal share), the State agency made a computational error
          in the
             the monthly income test.




                                                       8

CONCLUSION

Some of the sampled payments did not meet Federal and State eligibility or payment
requirements. For these
requirements.              payments,(1)
                    these payments,    (1) recipient
                                            recipient families
                                                       families did
                                                                did not
                                                                    not fully
                                                                        fully disclose
                                                                              disclose information
                                                                                       information at
                                                                                                    at the
                                                                                                       the
     of application or eligibility redetermination and did not notify the State agency of
time of                                                                                      of changes in
financial situation or other changes affecting
                                      affecting eligibility, (2) the State agency did not verify all
information provided to support applications, or   or (3) the State agency did not apply required
sanctions.

Based on our sample results, we estimated that the TANF improper payment rate was 5.5 percent
of
of the   Federal
   the Federal dollarsdollars     expended
                       expended and 9.3 percent of and 9.3 percent of the   number
                                                                      the number of     of basic assistance payments made
for the
for the I-year audit period. Specifically,  Specifically,we weestimated
                                                               estimated that
                                                                            that thethe State
                                                                                        State agency
                                                                                              agency paid
                                                                                                      paid $4,848,437
(Federal share)
             share) for for 28,447
                              28,447 overpayments.
                                          overpayments. (See (See Appendix
                                                                  Appendix D for details on our sample   sample results and
estimates.)

We
We are are  not recommending
       not recommending recovery of 
     recovery of the overpayments identified in this report primarily
because ACF decided to              to assess penalties 6 in the T
                                       assess penalties6           ANF program
                                                                 TANF  program rather
                                                                               rather than
                                                                                      than take disallowances in
response to audit findings.

RECOMMENDATIONS

We recommend that the State agency:

     •.   use
          use thethe  results
                  results of
 of this review to help ensure compliance with Federal and State TANF
          requirements by (1) reemphasizing to recipients the need to provide accurate and timely
          information, (2) requiring its   its employees
                                               employees to verify eligibility information, and
                                                                                            and (3)
                                                                                                (3) applying
                                                                                                    applying
          required      sanctions;
          required sanctions;



     •.   determine the current eligibility of
                                            of all recipients identified in this review as improperly
          enrolled in the T ANF program
                          TANF   program and
                                           and ensure that further assistance is denied for those who
          remain ineligible; and

     •.   recalculate assistance payments for all recipients identified in this review as having
          received improperly calculated
                               calculated payments.
                                          payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
provided information on steps that it had already
                                             already taken.
                                                     taken. The
                                                             The State
                                                                     State agency
                                                                           agency also expressed its
concerns about developing aa national
                                 national TTANF
                                            ANF payment error rate rate because States are allowed to use
different eligibility criteria, budgeting methodologies, and sanction procedures in     in their
                                                                                           their programs.
The State agency requested that we refrain from posting our individual State reports on the
Internet until the entire eight-State
                           eight-State TANF
                                       TANF review
                                              review process
                                                      process isis complete
                                                                    completeand
                                                                              andall
                                                                                  allreports
                                                                                      reportsare
                                                                                              arefinaL.
                                                                                                   final.

6Penalties are set forth in section 409 of

6Penalties    are set forth in section 409 of the Act.


                                                             9
The State agency's comments
                   comments are
                            are included
                                 includedin
                                          intheir
                                             theirentirety
                                                   entirety as
                                                            as Appendix
                                                               Appendix E.
                                                                        E.

OFFICE OF INSPECTOR
          INSPECTOR GENERAL
                    GENERAL RESPONSE

The Improper Payments Information Act of                   of 2002 requires
                                                                         requires Federal agencies to estimate
                                                                                                         estimate the
                                                                                                                  the annual
amount of improper payments in their programs          programs and    and to
                                                                            to report
                                                                               report that
                                                                                       that estimate
                                                                                            estimate to
                                                                                                      to Congress.
                                                                                                         Congress. As
stated    on 1page
stated on page of  1 of this   report,
                        this report,       ACF
                                     ACF and       and OMB
                                             OMB requested          requested
                                                           this review of 
      this review of the TANF program for
fiscal year 2008
               2008 performance and      and accountability reporting.

With respect to posting reports on the Internet, the Consolidated Appropriations Act of                 of 2008
(Public     Law     110-161),      section      746,    requires that each Office ofInspector
(Public Law 110-161), section 746, requires that each Office ofInspector General post on      General post on its
                                                                                                              its
Web
Web site site  anyreport
         any public public     report
                         or audit        or audit
                                  issued within        issued within 1 day of its release.
                                                1 day of




                                                              10

                                                              10
APPENDIXES
APPENDIXES

                                                                                                           APPENDIX A
                                                                                                             Page 1I of3
                                                                                                             Page

          FEDERAL REQUIREMENTS RELATED TO TEMPORARY
                                            TEMPORARY ASSISTANCE
                                                       ASSISTANCE
                        NEEDYFAMILIES
                    FOR NEEDY FAMILIÈS BASIC ASSISTANCE
                                             ASSISTANCE

•.        Section      401 of the
          Section 401 of            Social
                              the Social       Security
                                         Security            Act
                                                  Act (the Act)     (the
                                                                states that Act)   states
                                                                            one purpose                          the Temporary
                                                                                        of
 that one purpose of the  Temporar
          Assistance for Needy Families (T                  ANF) program
                                                        (TANF)         program is    is to
                                                                                         to provide
                                                                                            provide assistance to needy
          families.

•.        The    Federal
          The Federal         Register,
                      Register,               Vol.
                                Vol. 64, No. 69, page 64,
                                                      17825 No.
                                                            (April 69,
                                                                   
                     12, 1999) defines a needy
                                                                       page 17825 (April 12,
          family as one that is financially deprived, i.e., lacking adequate income and                and resources.
                                                                                                           resources.

•.        Regulations (45
          Regulations      (45 CFR § 260.31(a)(l))
                                        260.31(a)(1)) define
                                                      defineassistance
                                                             assistanceasascash,
                                                                            cash,payments,
                                                                                  payments,vouchers,
                                                                                               vouchers,and
                                                                                                         and
          other    forms
          other forms of 
 of benefits designed to meet a family's ongoing
                                                                    ongoing basic
                                                                              basic needs
                                                                                    needs (i.e.,
                                                                                           (i.e., food,
                                                                                                   food,
          clothing, shelter, utilities, household goods, personal care items, and general incidental
          expenses), as well as supportive services, such as transportation and childcare provided to
          families whose household heads  heads are
                                                are not
                                                    not employed.
                                                        employed.

•.                         CFR §§ 263.2(b))
          Regulations (45 CFR      263.2(b)) state
                                              state that
                                                     that cash
                                                          cash assistance
                                                               assistance benefits
                                                                          benefits may
                                                                                   may be
                                                                                       be provided
                                                                                          provided only
          to or on behalf
                   behalf of
                          of eligible families.

•.        Section      408(a)(I)
          Section 408(a)(I) of   of the   Act
                                    the Act      requires
                                            requires          that
                                                     that a State not a
                                                                      useState
                                                                          any partnot
                                                                                   of 
 use any part of the grant to provide

          assistance to a family unless the family includes a minor child who resides with the
          family or includes a pregnant woman.

•.        Section      408(a)(4)
          Section 408(a)(4) of   of the   Act
                                    the Act      requires
                                            requires           that
                                                     that a State not a
                                                                      useState    of
 use any part of the TANF grant to
                                                                          any par not

          provide assistance to an individual who has not attained 18                     18 years of
                                                                                                   of age,
                                                                                                      age, is
                                                                                                           is not
                                                                                                              not married,
                                                                                                                  married,
          has a minor child at least 12     12 weeks of     of age in his or her care, and has not successfully
          completed a high school education or its equivalent.

 •.       Section      408(a)(7)
          Section 408(a)(7) of 
        of the Act and 45
                                                        45 CFR
                                                             CFR §§ 264.1(a)(1)
                                                                     264.1(a)(I) provide
                                                                                 providethat
                                                                                         thataa State
                                                                                                Statemay
                                                                                                       maynotnotuse
                                                                                                                 use
          Federal TANF funds to provide assistance to a family that includes an adult who has
                         Federal assistance
          received Federal            assistance for
                                                   for more
                                                       more than
                                                              than 60
                                                                   60 cumulative
                                                                      cumulative months.
                                                                                   months. However, 45 CFR
          § 264.1
             264.1(c)  (c)allows
                             allows States
                                         Statesthe
                                                theoption
                                                    option to
                                                            to extend
                                                               extend assistance
                                                                      assistancebeyond
                                                                                  beyondthe
                                                                                          the5-year
                                                                                              5-yearlimit
                                                                                                      limit for up to
          20 percent of the average monthly number of families receiving assistance during the
          fiscal    year
          fiscal year on theon   theof 
basis of hardship, as defined by the State, or battery of
                             basis                                                              of a family
          member.

 •.       Regulations (45 CFR §§ 261.
                                  261.1O(a)(l))
                                        lO(a)(1)) require that a parent or caretaker
                                                                           caretaker receiving
                                                                                     receiving
          assistance engage in work activities when the State has determined that the individual is
          ready to
                 to do
                    do so or when the individual has received assistance for a total of
                                                                                      of 24 months,
          whichever is earlier.

     •.    Regulations
           Regulations (45         CFR §§
                               (45 CFR   §§ 205.52(a)(I)
                                             205.52(a)(I) and
                                                          and (2))
                                                               (2)) require,
                                                                    require, as
                                                                              asaacondition
                                                                                   conditionof
                                                                                             ofeligibility,
                                                                                                eligibility, that
                                                                                                             that
           each applicant for or recipient of    of aid furnish his or her Social Security number to the State
           or  local
           or local     agency.
                    agency. If 
   If the individual cannot recall or was not issued a Social Security
                                                                                                          APPENDIX
                                                                                                          APPENDIX A  A
                                                                                                            Page
                                                                                                             Page 2 of3
                                                                                                                    of3

                       individual is
         number, the individual    is required
                                       required to
                                                 to apply
                                                    apply to the
                                                             the Social
                                                                 Social Security
                                                                         Security Administration
                                                                                  Administration (SSA)
                                                                                                    (SSA)
               number through procedures
         for a number             procedures adopted by the State or local agency.
                                                                               agency. IfIfsuch
                                                                                            such procedures
                                                                                                 procedures
                 in effect, the individual
         are not in             individual must
                                             must apply
                                                    apply directly for such a number, submit
                                                                                       submit verification
                                                                                                verification
         of
         of such  application,  and provide   the  number   upon  its receipt.
                  appllcation, and provide the number upon its receipt.

   .•    Regulations (45 CFR        CFR §§ 205.52(g))
                                               205.52(g)) require
                                                           require the State
                                                                       State agency
                                                                             agencyto
                                                                                    tosubmit
                                                                                       submit all
                                                                                              all unverified Social
         Security
         Security      numbers
                  numbers             to SSA for
                          to SSA for verification. 
 verification. 1I

   .•    Title IV of the Personal Responsibility
         Title IV of 
                          Responsibility and WorkWork Opportunity
                                                                               Opportunity Reconciliation
                                                                                              Reconciliation Act Act of
                                                                                                                      of1996
                                                                                                                        1996
         (Public Law
         (Public      Law 104-193,
                              104-193, as    as codified,    in part,
                                                  codified, in  part, at
                                                                      at 88 U.S.C.
                                                                            U.S.C. §§
                                                                                    §§ 1601-1646)      requires aa TANF
                                                                                        1601-1646) requires         TANF
         recipient      to  be   a  citizen     or
         recipient to be a citizen or national of 
 national  of the  United  States or   a qualified  alien. Legal
                                                                                                       alien.  Legal
         resident aliens and     and other
                                        other qualified
                                                 qualified aliens
                                                            aliens who entered the United States on or       or after
                                                                                                                after
         August 22, 1996,   1996, are ineligible
                                            ineligible for
                                                         for assistance
                                                              assistance for the first
                                                                                  first 55 years
                                                                                           years after
                                                                                                 after entry.
                                                                                                        entry.

   .•                    CFR §§ 263.2(b)(3))
         Regulations (45 CFR    263.2(b)(3)) state
                                              state that TANF
                                                         TANFbasic
                                                              basicassistance
                                                                    assistance income and
         resource thresholds are established by
                                             by the State and must be included
                                                                      included in
                                                                               in the
                                                                                  the State
                                                                                      State plan.
                                                                                            plan.
                                                                                 vary based
         The income and resource thresholds, which are subject to adjustments, vary   based on the
         number of
                 of members inin the household.
                                     household.

   .•    Regulations (45 CFR    CFR §§§§ 205.51
                                         205.51 and 205.55) establish requirements
                                                                           requirements for
                                                                                          for income and
         eligibility verification.      These regulations
                         verification. These   regulations governing
                                                             governing the Income and Eligibility
         Verification System require States to request information from other Federal and State
         agencies to verify individuals' eligibility
                                                eligibility for
                                                            for assistance
                                                                assistance under
                                                                            under the
                                                                                  the State
                                                                                      State plan
                                                                                             plan and
                                                                                                  and the
                                                                                                       the
         correct     amount
         correct amount of 
   of assistance payments for applicants and recipients.

    •.   Regulations (45 CFR § 264.30(a)) require the State
                                                        State agency
                                                              agency to
                                                                      to refer
                                                                          refer to
                                                                                 to the
                                                                                    the child
                                                                                        child support
         enforcement agency all appropriate individuals in the family of a child for whom
         paternity has not been established or for whom a child support order needs to be
         established, modified,
                      modified, or enforced.  Referred individuals
                                    enforced. Referred individuals must cooperate in establishing
         paternity and in establishing, modifying, or enforcing a support order with respect to the
         child.

    •.    Section 408(a)(2)
                   408(a)(2) of the Act provides that if an individual does not cooperate with the
          State
          State in establishing paternity or in establishing, modifying, or enforcing a support order,
          the State must reduce assistance by at least 25 percent or may deny the family any
          assistance.

    •.    Section
          Section 408
                    408 ofthe   Act prohibits
                         ofthe Act   prohibits assistance
                                                assistance for individuals who (1) fail to assign support
          rights
          rights to
                 to the
                     the State,
                         State, (2)
                                (2) fail
                                    fail to attend high school or an equivalent training program when
          the individual is a teenage parent, (3) failfail to reside in an adult-supervised setting when the
          household head is a teenager,
                                  teenager,  (4) are fugitive
                                                     fugitive felons
                                                                felons or
                                                                       or parole violators, or (5) are minor

 lThe State
[The  State agency
             agency may
                     may accept
                           accept as
                                  as verified
                                     verified aa Social
                                                 Social Security
                                                        Security number
                                                                 number provided
                                                                          provided directly
                                                                                    directly to
                                                                                             to the
                                                                                                the State agency by
                                                                                                    State agency     SSA or
                                                                                                                  by SSA   or
by
by another Federal or federally assisted benefit program that has received the number from SSA or has submitted itit
    another  Federal  or federally assisted benefit  program  that has received the number    from  SSA   or has submitted
to
 to SSA
    SSA for
         for verification.
             verification.
                                                                                       APPENDIX A
                                                                                         Page 3 of3

     children absent from the
                          the home
                              home or
                                   or parents
                                      parents who
                                              who fail to notify the State
                                                                     State agency
                                                                           agency of
                                                                                  of the
     absence.

.•   The Personal Responsibility and WorkWork Opportunity Reconciliation Act of   of 1996
                                                                                     1996 (Public
           104-193, as
     Law 104-193,    as codified,
                        codified, in part, at 88 U.S.c.                 section 115(a)(1),
                                                 U.S.c. §§ 1601-1646), section   115(a)(1), prohibits
                                 who have
     assistance for individuals who   have been
                                             been convicted
                                                   convicted of
                                                             of a drug-related
                                                                  drug-related felony.
                                                                               felony.

.•   Regulations (45 CFR
                     CFR §§ 205.60(a))
                            205.60(a)) require
                                        require State
                                                State agencies
                                                      agencies to maintain records regarding
                                                                  maintain records
     applications and eligibility determinations for
                                                  for the
                                                      the provision
                                                          provision of
                                                                    of assistance.  Included in
                                                                       assistance. Included
     such records should be
                          be facts
                             facts supporting
                                   supporting initial
                                              initial and continuing eligibility
                                                                      eligibility determinations.
                                                                                  determinations.

.•                     CFR part
     Regulations (45 CFR   part 265)
                                265) establish
                                     establish that
                                                that States
                                                     States must report TTANF    financial data
                                                                           ANF financial   data on a
     quarterly basis to ACF. Pursuant
                              Pursuanttoto45
                                           45 CFR
                                              CFR§§  §§ 265.7(a)
                                                         265.7(a) and
                                                                  and 265.4(a),
                                                                      265.4(a), each
                                                                                each State's
     quarterly reports must be complete, accurate, and filed within 45 days of the
     quarterly reports must be complete, accurate, and fied within 45 days of       theendend
                                                                                           of  of the
     quarter.  A complete  and accurate  report means   that (1) the reported  data  accurately
     quarter. A complete and accurate report means that (1) the reported data accurately
     reflect information available to the State in case records, financial records,
                                                                             records, and
                                                                                       and automated
     data systems; (2) the data are free
                                    free from
                                         from computational
                                               computational errors andand are
                                                                           are internally
                                                                                internally consistent;
                                                                                             consistent;
     and (3) the reported data
     and                  data include
                               include all applicable elements
                                                       elements (45
                                                                  (45 CFR § 265.7(d)).
                                                                                                                  APPENDIXB
                                                                                                                  APPENDIX B

                                                                                                                     Page 11 of5
                                                                                                                    Page     of5

          STATE REQUIREMENTS RELATED
                              RELATED TO TEMPORARY
                                         TEMPORARY ASSISTANCE
                                                     ASSISTANCE
                   FOR NEEDY FAMILIES BASIC ASSISTANCE

   •.                       (MIN. STAT.)
         Minnesota Statutes (MINN. STAT.) §§2561.09
                                            256J.09establishes
                                                      establishesthat
                                                                  thatthe
                                                                       theMinnesota
                                                                           MinnesotaDepartment
                                                                                       Department
         of Human Services (the State agency)
                                      agency) will
                                              wil determine
                                                   determine public
                                                              public assistance eligibility
                                                                                eligibility for all
         household members.

   •.    MIN. STAT.
         MINN. STAT. §§ 2561.09,
                        256J.09, subdivision
                                 subdivision 1,
                                             1, requires
                                                 requiresthat
                                                          thataaState-prescribed
                                                                 State-prescribedwritten
                                                                                  writtenapplication
                                                                                          application
         be completed for each case.

   •.    MIN. STAT.
         MINN. STAT. §§ 2561.13
                        256J.13 states
                                states that
                                        that to
                                              to receive
                                                  receivefamily
                                                          familyassistance,
                                                                 assistance,aafamily
                                                                               familymust
                                                                                      mustinclude
                                                                                           include(1)
                                                                                                   (1)a a
         minor child who resides with a custodial parent or another adult caretaker or (2) a
         pregnant woman.

   •.    MIN. STAT.
         MINN.  STAT. §§ 2561.08,
                         256J.08, subdivision
                                    subdivision 11,
                                                 11,defines
                                                      definesaa"caregiver"
                                                                 "caregiver"asasaaminor's
                                                                                    minor'snatural
                                                                                            naturaloror
         adoptive parent or stepparent who lives in the home
                                                           home with
                                                                   with the
                                                                         the minor
                                                                             minor child.
                                                                                    child. In
                                                                                           In addition,
         "caregiver" means a legal
                                legal custodian
                                      custodian or
                                                 or guardian;
                                                    guardian; a grandparent; a brother
                                                                                  brother or
                                                                                          or sister; a half­
         brother or half-sister; a stepbrother or stepsister; an uncle or aunt; a first cousin or first
         cousin once removed; a nephew or niece; a person from a preceding generation denoted
         as "great," "great-great,"
                     "great-great," or
                                     or "great-great-great;"
                                        "great-great-great;" or
                                                             or aa spouse
                                                                   spouse of
                                                                           of any
                                                                               any person named in the
         above groups even after the marriage ends by deathdeath oror divorce.

   •.    MIN. STAT.
         MINN.      STAT. §§ 2561.75,
                                  256J.75, subdivision
                                                 subdivision 2,    2, states
                                                                      statesthatthatwhen
                                                                                     whenaaminor
                                                                                              minorchild
                                                                                                     childmoves
                                                                                                            movesfrom  fromone
                                                                                                                             one
         county to another to reside with            with aa different
                                                               different caregiver,
                                                                            caregiver, the caregiver
                                                                                             caregiver in
                                                                                                        in the
                                                                                                           the former
                                                                                                                 former county
                                                                                                                          county is
         eligible     to receive
         eligible to receive assistanceassistance       forthrough
                                        for that child only that the
                                                                   child    only
                                                                      last day of through the last day of the     month
                                                                                                            the month of
  of the
         move. The
         move.       The caregiver
                             caregiverin    inthe
                                                thenewnewcounty
                                                             county becomes
                                                                        becomes eligible
                                                                                    eligible to
                                                                                             to receive
                                                                                                receive assistance
                                                                                                         assistance for the
         child on the first day of         of  the   month
                                                      month    following       the move   or the date of
                                                                                                      of application,
         whichever is later.

    .•   Pursuant
         Pursuant to     to MINN.
                             MIN. STAT.STAT. §§   §§ 256J.1l-15,
                                                       2561.11-15,20,     20, and 21,  21, eligibility
                                                                                             eligibility for
                                                                                                          forfamily
                                                                                                              familyassistance
                                                                                                                        assistance must
         bedetermined
         be   determined         based on
                       based on citizenship,    citizenship,
                                             financial              financial
                                                       need, age, welfare of
     need, age, welfare of the child or minor,
         residence in the State, living arrangements, relationship ofthe                         ofthe child
                                                                                                         child toto the
                                                                                                                     the caregiver,
                                                                                                                         caregiver, and
         applicable durational time limits. Applicants          Applicants must   must be  be advised
                                                                                               advised that
                                                                                                          that aa Social
                                                                                                                  Social Security
                                                                                                                          Security
         number is required for each person in the public assistance household and that the Social
         Security
         Security numbernumber
                         will be usedwill    be usedtheinState's
                                      in administering       administering
                                                                   family assistancethe   State's family assistance program. 1l
                                                                                     program.





    .•   MIN.
         MINN.STAT.
               STAT. §§ 2561.45
                        256J.45 states
                                 statesthat
                                        thatapplicants
                                             applicantsmust
                                                       mustbebeadvised
                                                                advisedofthe
                                                                         oftherequirement
                                                                               requirementtoto
         comply with the Child
                         Child Support
                                Support Enforcement
                                         Enforcement Program
                                                       Program and
                                                                and with
                                                                    with work
                                                                          work requirements.
                                                                                requirements.

    .•   MIN.
         MINN.STAT.
                 STAT. §§ 2561.08,
                          256J.08, subdivision
                                     subdivision 60,
                                                 60, defines
                                                     definesaa"minor
                                                                 "minorchild".as
                                                                          child".asaachild
                                                                                        childwhowholives
                                                                                                    livesinin
         the home of
                   of a parent
                         parent or
                                or another
                                   another caregiver,
                                            caregiver, is
                                                        is not
                                                           not the
                                                               the parent
                                                                   parent of
                                                                           of aa child
                                                                                 child in
                                                                                        in the
                                                                                            the home,
                                                                                                home, and
                                                                                                      and isis
         either under 18
                      18 years ofof age or
                                        or under
                                           under 19
                                                  19 years
                                                     years ofof age and a full-time student in a

lThe family assistance program is the State agency's temporary assistance program for families. The program is
lThe family assistance program is the State agency's temporary assistance program for families. The program is
subject to Federal T ANFrules
                   TANF   rules and
                                and isis funded
                                          fuded with
                                                withFederal
                                                     Federaland
                                                             and State
                                                                 State money.
                                                                       money.
                                                                                                              APPENDIXB
                                                                                                              APPENDIX B

                                                                                                                 Page 22 of5
                                                                                                                         of5

         secondar school
         secondary  school or
                           or pursuing
                               pursuing a full-time
                                            full-time secondar
                                                       secondarylevel
                                                                 levelcourse
                                                                       course of
                                                                              ofvocational
                                                                                 vocational or
                                                                                            or technical
                                                                                                technical
         training designed
         training designedtoto fit
                                fitstudents
                                    studentsfor
                                              forgainful
                                                   gainfl employment

   .
   •     MIN. STAT.
         MINN.   STAT. §§ 256J.20
                           256J.20 specifies
                                    specifies that
                                               that thethe maximum
                                                            maximumamount
                                                                       amountof  ofassets
                                                                                    assetsthat
                                                                                           thataafamily
                                                                                                     familymay
                                                                                                            may
                   stil qualify
         own and still   qualifyfor
                                 for assistance
                                      assistance isis $2,000
                                                      $2,000 for
                                                              for an
                                                                  an initial
                                                                      initial assessment
                                                                              assessment and
                                                                                           and $5,000 for
                   cases. However, the family
         ongoing cases.                     family isis allowed
                                                         allowed one
                                                                 one automobile
                                                                       automobile valued
                                                                                     valued np
                                                                                             l,lp to
                                                                                                  to $7,500
                                                                                                      $7,500 (loan
         value).

   •.    MIN. STAT.
         MINN.      STAT. §§ 256J.21
                                  256J.21 requires
                                                requires that that the
                                                                     the State
                                                                           Stateagency
                                                                                    agencydetermine
                                                                                             determineongoing
                                                                                                        ongoingeligibility
                                                                                                                  eligibilityand
                                                                                                                              and
         payment amountsamounts according to           to a monthly
                                                               monthly incomeincome test.
                                                                                        test. To
                                                                                              To be
                                                                                                 be eligible, a recipient's
                                                                                                                recipient's
         Minnesota Family Investment    Investment ProgramProgram (MFIP) (MFIP)standard
                                                                                      stadard of
                                                                                               ofneed
                                                                                                  need must
                                                                                                        must be
                                                                                                              be greater
                                                                                                                  greater than
                                                                                                                           than his
                                                                               2
         or  her
         or her    gross
                gross income income       less income
                             less income disregards.2         disregards.
                                                      In addition,                Inofaddition, the MFIP standard of need must
                                                                   the MFIP standard

         be reduced based on any unearned income                 income that  that the
                                                                                     the recipient
                                                                                         recipient receives.
                                                                                                   receives. Any
                                                                                                              Any remaining
         amount represents the MFIP grant amount.

   •.    Minnesota's "Combined
         Minnesota's "CombinedManual,"
                                  Manual,"section
                                           section0022.12,
                                                   0022.12, states
                                                             states that
                                                                     thatthe
                                                                          the MFIP
                                                                              MFIP grant
                                                                                   grant amount
                                                                                         amount
                                            overpayments and
         must be reduced for recoupment of overpayments   and food
                                                                food support.
                                                                       support. Any
                                                                                Any remaining
         amount represents the
                           the TTANF
                                 ANF basic assistance payment.

   •.    MIN. STAT.
         MINN.   STAT. §§ 256J.21,
                           256J.21, subdivision
                                     subdivision 2(19),
                                                   2(19),states
                                                          statesthat
                                                                 thatSupplemental
                                                                     SupplementalSecurity
                                                                                    SecurityIncome
                                                                                              Income
         (SSI), including   retroactive SSI payments    and  other income  of an SSI  recipient,
         (SSI), including retroactive SSI payments and other income of an SSI recipient, must    must be
                                                                                                       be
         excluded from income. Pursuant        to §§256J.24,
                                     Pursuant to    256J.24, subdivision
                                                              subdivision 3(1),
                                                                          3(1), SSI
                                                                                SSI recipients
                                                                                     recipients must
                                                                                                 must be
         excluded from
         excluded   from the
                          the recipient
                               recipient family.

   •.    MIN. STAT.
         MINN.   STAT. §§ 256J.521,
                          256J.521, subdivision
                                      subdivision 2,2, states
                                                        statesthat
                                                                thatthe
                                                                      thejob
                                                                          jobcounselor
                                                                              counselorandandTANF
                                                                                               TANFrecipient
                                                                                                        recipient
               develop and sign an employment plan
         must develop                                plan that
                                                             that includes
                                                                   includes participation
                                                                             paricipation in
                                                                                           in activities and
         hours that
         hours  that meetState
                     meetState requirements.
                                 requirements. Failure to develop
                                                                develop or comply withwith the
                                                                                            the plan activities
                                           employment without good cause wil
         or voluntarily quitting suitable employment         without   good  cause  will result in the
         imposition of
         imposition  ofaa sanction
                           sanction under
                                    under § 256J.46.
                                              256J.46. When
                                                          When aa recipient
                                                                     recipient family
                                                                               familyreceives
                                                                                       receives its
                                                                                                  its seventh
                                                                                                      seventh
         sanction, the family is
                               is no
                                  no longer
                                      longer eligible
                                             eligibleforfor TTANF
                                                               ANF assistance.

    •.   MIN. STAT.
         MINN.  STAT. §§ 256J.46
                         256J.46 states
                                  states that
                                          that aa public
                                                  publicassistance
                                                          assistancerecipient
                                                                     recipientwho
                                                                               whorefuses
                                                                                   refusesororfails
                                                                                               fails
         without good cause to comply with employment requirements must be sanctioned through
         a prorated reduction of
                              of the assistance grant.
                                                   grant.

    •.   MINN. STAT. §§256J.55
         MIN. STAT.     256J.55states
                                statesthat
                                       thatall
                                            allcaregivers,
                                                caregivers,unless
                                                            unlessexempt,
                                                                   exempt,must
                                                                           mustparticipate
                                                                                participateinin
         employment services, modified or otherwise, while receiving MFIP assistance.

    •.   MINN.  STAT. §§ 256J.561,
         MIN. STAT.        256J.561, subdivision
                                      subdivision2,2,states
                                                       statesthat
                                                              thataacaregiver
                                                                     caregivermust
                                                                               mustcomply
                                                                                     complywith
                                                                                              with
         specialized or modified work activities if  if he or she is determined to
                                                                                 to be
                                                                                    be (1)
                                                                                       (1) 60
                                                                                           60 years
                                                                                              years of
                                                                                                    of age
         or older; (2) ill or injured to the extent that,
                                                    that, as determined byby a qualified
                                                                               qualified professional,
                                                                                         professional, he
         or she is unable to engage in work activities for 30 days or more, including a pregnant

2Income disregards
2Income disregards refer
                   refer to
                          to income
                             income that
                                    that is
                                         is not
                                            not counted
                                                counted when
                                                        when determining
                                                             determining eligibility
                                                                         eligibility and
                                                                                     and calculating
                                                                                         calculating the
                                                                                                     the payment
                                                                                                         payment
amount.
                                                                                                             APPENDIXB
                                                                                                             APPENDIX B

                                                                                                                Page 33 of5
                                                                                                                Page    of5

      recipient who is unable to obtain or retain employment; (3) under the age
                                                                             age of
                                                                                 of 18
                                                                                     18 or under
      the age of 20 and attending a secondary, vocational, or technical school full time;
      (4)
      (4) disabled
          disabled or incapacitated; or
                   or incapacitated;  or (5)
                                         (5) needed
                                             needed in
                                                    in the
                                                       the home
                                                           home because another household
                                                                because another household
      member is mentally or physically impaired, as determined by a qualified professional,
                                                                                professional, and
      requires his or
      requires his or her
                      her presence..

                          presence..

•.    MIN. STAT.
      MINN.  STAT. §§ 256J.561,
                      256J.561, subdivision
                                subdivision 3(a),
                                             3(a),states
                                                   statesthat
                                                          thatthe
                                                               theparent
                                                                   parentor
                                                                          orother
                                                                             othercaretaker
                                                                                   caretakerrelative
                                                                                             relative
      who is personally providing care for a child under 1212 weeks of
                                                                     of age is not required to
      participate in employment services until the child reaches 12 weeks of of age.

•.    MIN. STAT.
      MINN.   STAT. §§ 256J.561,
                       256J.561, subdivision
                                   subdivision 3(b),
                                               3(b),states
                                                     statesthat
                                                            thatthe
                                                                 theprovisions
                                                                      provisionsininparagraph
                                                                                       paragraph3(a)  3(a)end
                                                                                                           end
      the first full month after the child reaches 12
                                                    12 weeks of
                                                              of age and that the participant and job
      counselor must meet within 10 days after the child reaches
                                                             reaches 12 weeks
                                                                           weeks of age.age. ItIt also
                                                                                                  also states
      that this provision is available only once in a caregiver's
                                                       caregiver's life
                                                                    life and
                                                                         and that
                                                                              that in
                                                                                    in aa two-parent
                                                                                           two-parent
      household, only one parent is allowed to use this provision.

•.    Pursuant to     to MINN.
                         MIN. STAT. STAT. §§256J.32,
                                                  256J.32,each  eachapplicant
                                                                        applicantand    andrecipient,
                                                                                            recipient,asasa acondition
                                                                                                              conditionofof
      eligibility, must furnish evidence of those factors               factors that affect eligibility and the amount amount ofof
      entitlement, including (1) identity of adults; (2) presence of the minor child in the home if
      questionable; (3) relationship of               of a minor child to caregivers in the recipient   recipient family;
                                                                                                                   family;
      (4)   age
      (4) age if 

                   if necessary       to  determine       MFIP      eligibility;      (5) immigration    status; (6)  Social
                                                                                                                      Social
      Security numbers; (7) income; (8) self-employment expenses used as deductions;
      (9)
      (9) source
             source and and purpose
                               purose of   ofdeposits
                                                deposits and and withdrawals
                                                                    withdrawals from    frombusiness
                                                                                             businessaccounts;
                                                                                                        accounts; (10)
                                                                                                                     (10) spousal
                                                                                                                          spousal

      support and child support payments made to persons outside the household; (11) real
      propert;
      property;(12)   (12)vehicles;
                             vehicles;(13)  (13)checking
                                                     checkingand  andsavings
                                                                         savings accounts;
                                                                                      accounts; (14)
                                                                                                 (14) savings
                                                                                                       savings certificates,
                                                                                                                 certificates,
      savings bonds, stocks, and individual retirement accounts; (15) pregnancy                     pregnancy if  if related to
      eligibility; (16) inconsistent information if
      eligibility;                                                    if related to eligibility; (17) burial accounts;
                                                                                                                   accounts;
      (18)    school     attendance        if  related    to  eligibility;     (19)    residence;
      (18) school attendance if related to eligibility; (19) residence; (20) a claim of family    (20)   a claim  of  family
      violence
      violence if    if used
                        used as aas  a basis
                                  basis          forviolence
                                        for a family  a family
                                                             waiver;violence      waiver;
                                                                     (21) disability if     (21) disability if used as a basis
      for exemptions from training or employment or for reduced hourly work participation
      requirements;
      requirements; and (22) exceptions for certain assistance standards.

 •.   MIN. STAT.
      MINN.  STAT. §§ 256J.09,
                       256J.09, subdivision
                                 subdivision 2,2,requires
                                                  requiresthe
                                                            thecounty
                                                                countyoffice
                                                                        officetotoinform
                                                                                   informeach
                                                                                            eachapplicant
                                                                                                  applicant
      and
      and recipient,
          recipient, at the
                        the time
                            time of  application and
                                  of application  and subsequently,
                                                       subsequently, of               initialand
                                                                       of his or her inÍtial  and
      continuing responsibilities to furnish accurate, complete, and current eligibility
      information.   Also,§§256J.30,
      information. Also,      256J.30,subdivision
                                        subdivision9,9, requires
                                                         requires each
                                                                  each applicant
                                                                        applicant and
                                                                                    andrecipient
                                                                                        recipient to
                                                                                                   to

      make a timely report to the county office of  of any changes in his or her needs
                                                                                     needs or
                                                                                            or resources.
                                                                                               resources.
      A report is considered timely if if made within 1010 days of
                                                                 of the changes.

 •.   Pursuant
      Pursuant toto MINN.  STAT. §§256J.32,
                    MIN. STAT.      256J.32,subdivision
                                               subdivision6,6,the
                                                               thecounty
                                                                   countyoffice
                                                                           offcemust
                                                                                  mustrecertify
                                                                                        recertify
      eligibility in an annual face-to-face
                               face-to-face interview with the recipient and verify (1) presence of
      the minor child in the home if if questionable; (2) income, unless excluded, including
                                                                                       including self-
                                                                                                  self­
      employment expenses used as a deduction and deposits or withdrawals from business
      accounts;
      accounts; (3)
                  (3) assets
                      assets when
                             when the
                                  the value
                                       value is
                                              is within
                                                 within $200
                                                        $200 ofthe  asset limit;
                                                              ofthe asset limit; (4)
                                                                                 (4) information
                                                                                     information to
                                                                                                                     APPENDIXB
                                                                                                                     APPENDIX B

                                                                                                                        Page
                                                                                                                        Page 44 of5
                                                                                                                                of 5

      establish certain
      establish  certain exemptions
                          exemptions from
                                     from assistance
                                          assistace standards;  and(5)
                                                     standards; and (5) inconsistent
                                                                         inconsistent information
                                                                                      information
      if related to eligibility.

•.    MIN. STAT.
      MINN.      STAT. §§ 256J.30,
                                256J.30, subdivision
                                               subdivision9,9,requires requirescaregivers
                                                                                     caregiverstotoreport reportchanges
                                                                                                                     changesororanticipated
                                                                                                                                  anticipated
      changes       in circumstances
      changes in circumstances  within 10 days ofwithin 10 days of the              date
                                                                              the date that that   theyat occur,
                                                                                            they occur,             at the time of the
                                                                                                          the time of


      periodic recertification of            of eligibility, or within 8 calendar days of                  of a reporting period,
      whichever comes first.        first. Changes
                                             Changes that    that must
                                                                    must be  be reported within 10        10 days must also be
      reported on the monthly Household Report Form for the reporting period in which the
      changes occurred.
      changes       occurred. Within  Within 10    10 days,
                                                        days, aa caregiver
                                                                    caregiver must report (1) a change in initial
      employment;           (2)in ainitial
      employment; (2) a change        change
                                           receiptinof initial
                                                       
         receipt of unearned income; (3) a recurring change in
      unearned income; (4) a nonrecurring change in unearned income that exceeds $30;
      (5)
      (5) receipt
            receipt of  of aa lump
                                lump sum;sum; (6)  (6) anan increase
                                                             increase in   in assets
                                                                               assets that
                                                                                         that may
                                                                                                may cause
                                                                                                        cause thethe recipient
                                                                                                                       recipient family
                                                                                                                                 family toto
      exceed asset limits; (7) a change in a recipient's physical or mental status ifthe                                   ifthephysical
                                                                                                                                  physical
      or mental status is the basis of               of an exemption from       from work requirements; (8) a change in
      employment status; (9) information affecting an exemption from the shared household
      standard; (10) the marriage or divorce of a recipient family member; (11) the death of                                          of a
      parent, minor child, or financially responsible person; (12) a change in address or living
      quarters
      quarters of   of the     recipient
                        the recipient  family; family;      (13)
                                                (13) the sale,     the sale,
                                                               purchase,         purchase,
                                                                         or transfer of          or transfer of propert;
                                                                                                                       property; (14)
                                                                                                                                 (14) aa

      change in school attendance for a caregiver under the age of                                   of 20 or an employed child;
      (15)    the   filing   of    a  lawsuit,      a  worker's
      (15) the fiing of a lawsuit, a worker's compensation claim, or  compensation           claim,     oraamonetary
                                                                                                              monetary claimclaim against
                                                                                                                                   against aa
               part; and
      third party;       and(16) (16)aachange
                                           changeininhousehold
                                                             household composition,
                                                                              composition, includingincluding births,
                                                                                                                   births, recipient
                                                                                                                            recipient family
                                                                                                                                      family
      members' and     and financially
                               financially responsible
                                                  responsible persons'
                                                                     persons' return
                                                                                   returnto   toand
                                                                                                  anddepartures
                                                                                                         departuresfrom  fromthe
                                                                                                                               thehome,
                                                                                                                                   home,or or
      a change in the custody of              of a minor child.

•.    MIN. STAT.
      MINN.   STAT. §§256J.08,
                      256J.08,subdivision
                               subdivisioi163,  definesan
                                           63, defines  an"overpayment"
                                                           "overpayment"asasthe
                                                                             theportion
                                                                                 portionofofanan
      assistance payment that is greater than the amount for which the recipient family is
      eligible.

 •.   Minnesota's "Combined
                  "Combined Manual,"
                               Manual," section
                                         section 0005.12.03,
                                                 0005.12.03, states
                                                             states that
                                                                    that an
                                                                         an application
                                                                            application isis
      complete when it is signed and dated and all questions are completed.

 •.   MIN. STAT.
      MINN.     STAT. §§256J.ll,
                               256J.11,subdivision
                                              subdivisionl(b),    l(b), states
                                                                          statesthat
                                                                                  thataaqualified
                                                                                         qualifiednoncitizen
                                                                                                   noncitizenwho
                                                                                                               whoentered
                                                                                                                      entered
      the United States on or after August           August 22,  22, 1996,
                                                                       1996, isis eligible
                                                                                  eligible for
                                                                                            for TTANF
                                                                                                  ANF basic assistance.
      However, the T        TANF
                               ANF grant may not be used            used to to fund TANF
                                                                                      T ANF basic assistance
                                                                                                   assistance for
                                                                                                               for aa qualified
                                                                                                                      qualified
      noncitizen for a period of           of 5 years after the date of entry unless the qualified noncitizen, as
      defined by the U.S.     U.S. Code, Title 8, was admitted to the United States as a refugee, was
      granted asylum,
                   asylum, or    or was
                                     was granted
                                            granted withholding
                                                          withholding of     of deportation.               an individual is
                                                                                 deportation. In addition, an
      eligible
      eligible for for  TANF
                   TANF basic       basic
                              assistance ifhe assistance                                            the U.S.
                                                               ifhe ofor
 she is (1) a veteran of the
                                               or she is (1) a veteran                                  U.S.Armed
                                                                                                             Ared Forces
                                                                                                                       Forces
      with an honorable discharge for a reason other than noncitizen status; (2) on active duty
      in the U.S.
                U.S. Armed Forces, other than for training;             training; or (3) a spouse or unmarried dependent
      child of the same.

 •.    MINN.  STAT. §§256J.26,
       MIN. STAT.       256J.26,subdivision
                                 subdivision1,1,states
                                                  statesthat
                                                         thatapplicants
                                                              applicantsororrecipients
                                                                             recipientswhowhowere
                                                                                               were
       convicted of
                  of a drug offense
                            offense after July 1,  1997,  may,
                                          July 1, 1997, may, ifif otherwise   eligible,  receive
                                                                              eligible, receive TTANF
                                                                                                  ANF
       basic assistance.  However, TANF
             assistance. However,   TANF benefits
                                            benefits for the entire assistance unit must be paid in
                                                                                                          APPENDIXB
                                                                                                          APPENDIX B
                                                                                                             Page 55 of5
                                                                                                             Page    of5

     vendor      form
     vendor form for      forandshelter
                     shelter                and any
                                 utilities during utilities
                                                     time that during     any
                                                               the applicant    time
                                                                             is part of that the applicant is part of the

     recipient family, and the convicted applicant or recipient is subject to random drug testing
     as a condition of continued eligibility.     eligibility. An  An applicant
                                                                         applicant or recipient who fails the first drug
     test is subject to a 30-percent
                                   30-percent sanction
                                                    sanction applied
                                                                  applied to   to any
                                                                                   any residual
                                                                                         residual TTANF
                                                                                                     ANF benefits remaining
     after vendor paymentspayments for    for shelter
                                                shelter andandutilities.
                                                                  utilties. An  An applicant
                                                                                      applicant or
                                                                                                 or recipient
                                                                                                     recipient who
                                                                                                               who fails
                                                                                                                   fails the
     second drug
     second       drug test
                          test isis permanently
                                     permanently disqualified
                                                         disqualified from the T           ANF program.
                                                                                          TANF

•.   Pursuant       toSTAT.
     Pursuant to MIN.   MINN.      STAT.
                            § 256J.26,        § 256J.26,
                                       subdivision             subdivision
                                                   2, an individual               2, an individual violating a condition of
                                                                    violating a condition

     probation, parole, or supervised release imposed under Federal law or the law of
     probation, parole, or supervised release imposed under Federal                                              of any State
     is disqualified from receiving TANF             TANF basic  basic assistace.
                                                                          assistance.

•.   MIN. STAT.
     MINN.      STAT. §§ 256J.26,
                              256J.26, subdivision
                                             subdivision3,3,states   statesthat
                                                                              thatan anindividual
                                                                                        individualwhowhoisisfleeing
                                                                                                             fleeingtotoavoid
                                                                                                                         avoid
     prosecution, custody, or confinement after conviction for a crime that is a felony under
     the   laws
     the laws ofthe ofthe    jurisdiction
                    jurisdiction                 from which
                                 from which the individual flees (or,the  individual
                                                                      in the case of     flees (or, in the case of New Jersey,
     that is a high misdemeanor)
                           misdemeanor) is         is disqualified
                                                      disqualified from   from receiving
                                                                                   receiving TTANF
                                                                                                ANF basic assistance.

•.   MIN. STAT.
     MINN.      STAT. §§ 256J.26,
                             256J.26, subdivision
                                       subdivision4,4,states
                                                       statesthat
                                                              thatan
                                                                   anindividual
                                                                      individualwho
                                                                                 whoisisconvicted
                                                                                         convictedinin
     Federal      or court
     Federal or State Stateof court of having made a fraudulent statement or representation with

     respect to place of      of residence in order to receive assistance simultaneously from two or
     more States is disqualified
                            disqualified from
                                          from receiving
                                                receiving TTANF
                                                            ANF basic assistance for 1010 years beginning
     on the date of    of the conviction.

•.   MIN. STAT.
     MINN.  STAT. §§ 256J.42,
                     256J.42, subdivision
                               subdivision 1,1,states
                                                statesthat
                                                       thatunless
                                                            unlessaarecipient
                                                                      recipienthas
                                                                                hasgood
                                                                                    goodcause,
                                                                                          cause,a a
     recipient family in which any caregiver has received 60 months of     of cash assistance funded
     in whole or in part by the
                            the T
                                TANF
                                  ANF block
                                       block grant
                                               grant is
                                                      is ineligible to receive MFIP assistance.
                                                                                      APPENDIXC
                                                                                      APPENDIX C

                                                                                         Page 1 of2
                                                                                         Page   of2

                          SAMPLE DESIGN AND
                                        AND METHODOLOGY
                                            METHODOLOGY

SAMPLE OBJECTIVE
SAMPLE OBJECTIVE


Our objective was to determine
                           determine whether
                                      whetherthethe State
                                                    Stateagency
                                                          agency made
                                                                 made TTANF
                                                                        ANF basic assistance payments
to  oron on
to or        behalf
         behalf of 
 of recipient families in
                                           in accordance
                                              accordance with Federal and State requirements and
adequately documented eligibility and payment determinations.

AUDIT UNIVERSE

The universe consisted of
                       ofall
                          all TTANF
                                ANF basic assistance payments
                                                     payments made for the 12-month audit
period that ended March 31, 2007.

SAMPLING FRAME

The sampling frame was a computer
                            computer file
                                       file containing 304,790
                                                         304,790 monthly basic assistance
                                                                               assistance payments
                                                                                          payments
to or on behalf
         behalf of
                of T ANF recipients
                   TANF   recipients in Minnesota for the 12-month period that ended March 31, 31,
2007. The
2007.  The total
            total TANF
                  TANF reimbursement
                        reimbursementfor  for the
                                               the 304,790
                                                    304,790 payments
                                                            payments was
                                                                     was $104,168,618
                                                                         $104,168,618 ($88,543,325
                                                                                        ($88,543,325
Federal share).

SAMPLE UNIT

The sample unit was aa montWy
                        montWy T   ANF basic
                                 TANF    basic assistance
                                               assistance payment
                                                           payment to to or on
                                                                            on behalf of
                                                                                      of a recipient
family
family for
       for the
           the audit period. The payment
                     period. The  payment included
                                           included all
                                                      all basic
                                                          basic assistance payments made to or on
behalf of
       of the family for the month, including
                                    including utilities, rent, and cash payments.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of
                          of 150
                             150 monthly
                                 monthly TANF basic assistance payments.

SOURCE OF THE
          THE RANDOM
              RANDOM NUMBERS
                     NUMBERS

The source of the random numbers waswas the Office
                                            Office of
                                                   of Inspector General,
                                                                General, Office
                                                                         Office of
                                                                                of Audit
                                                                                   Audit Services,
                                                                                         Services,
statistical sampling software,  RAT-STATS   2007,  version 1. We used
                      software, RAT-STATS 2007, version 1. We used    the random   number
generator for
            for our simple random sample.

 METHOD FOR SELECTING SAMPLE ITEMS

 We sequentially numbered the payments in our sampling frame and selected the sequential
 numbers that correlated to
                         to the random numbers. We then
                                       numbers. We  then created
                                                         created aa list
                                                                     list of
                                                                          of150
                                                                             150 sampled
                                                                                 sampled items.
                                                                                         items.
                                                                                                              APPENDIXC
                                                                                                              APPENDIX C

                                                                                                                 Page 22 of2
                                                                                                                 Page    of2

CHARACTERISTICS TO BE MEASURED

We    based
We based        our determination
         our determination of 
               of whether each sampled payment was             was improper on Federal and
State    laws,
State laws,       regulations,
            regulations,              and other
                         and other requirements.      requirements.
                                                 Specifically, if at least oneSpecifically,
                                                                              of
           if at least one of the following
characteristics was     was met,met, we considered the payment under review improper:

     •.   The recipient family did not meet one or more eligibility r~quirements.

     •.   The recipient
          The recipient family
                        family was
                               was eligible
                                   eligible for
                                            for assistance
                                                assistace but
                                                           but received
                                                                received an
                                                                         an improper
                                                                             improper payment
                                                                                      payment amount
          (overpayment or underpayment).

     •.        case file
          The case  fie did
                         did not
                             not contain
                                 containsufficient
                                         sufficient documentation
                                                    documentation to
                                                                  to support
                                                                     support eligibility
                                                                             eligibility and payment
          determinations as required by Federal and State regulations.

ESTIMATION METHODOLOGY

    used RAT-STATS
We used  RAT-STATS to    to calculate
                            calculate our
                                      our estimates.
                                          estimates. WeWe estimated the total Federal dollar value
                                                                                             value of
                                                                                                   of
T ANF  basic  assistance  payments  with  eligibility or payment calculation errors.
TANF basic assistance payments with eligibility or payment calculation errors.       We also
estimated the total number ofof these improper payments.

In addition, we    we determined
                        determined the improper  improper payment
                                                              payment rate for the dollars expended       dividing the
                                                                                             expended by dividing  the
estimated improper
estimated        improper Federal
                               Federal dollars
                                            dollars by the  the total
                                                                total Federal
                                                                      Federal dollars
                                                                              dollars in
                                                                                      in the
                                                                                         the universe.
                                                                                             universe. We
                                                                                                       We also
                                                                                                           also
determined         the payment
determined the improper improper        the number of 
rate for the number of payments in error by dividing the
                               rate for payment

estimated number of         of improper payments by the total number of             of payments in the universe.
                                                                                                        universe.
                                                                                        APPENDIX D
                                                                                        APPENDIXD

                       SAMPLE RESULTS AND ESTIMATES
                              RESULTS AND ESTIMATES

                                         Details and
                                  Sample Details and Results

                                     Value of                             Value of
    Value of         No. of          Sampled                             Improper
                                                                                          No.
                                                                                          No. of
                                                                                              of
    Universe       Payments          Payments         Sample             Payments
                                                                                        Improper
    (Federal      in Universe        (Federal
                                      (Federal         Size               (Federal
                                                                          (Federal      Payments
     Share)                            Share)                              Share)

   $88,543,325       304,790          $44,365            150              $2,386           14



                                         Estimates
                         Calculated for a 90-Percent Confidence
                  Limits Calculatedfor               Confidence Interval
                                                                Interval
                                              Estimated        Estimated
                                               Value of          No. of
                                                                 No.
                                              Improper         Improper
                                              Payments         Payments
                           Point estimate      $4,848,437       28,447
                           Lower limit          2,393,401       17,470

                           Upper limit           7,303,472      43,294



                            Calculation of Improper Payment Rate

Dollar value of
             of payments       Estimated improper Federal dollars           $4,848,437          5.5%
                                Total Federal dollars in universe           $88,543,325


Number of
       of payments            Estimated No. of    of improper payments         28,447           9.3%
                               Total
                               Total     of 
 of payments in universe
                                     No. No.                                  304,790
                                                                                                                                APPENDIXE
                                                                                                                                APPENDIX E

                                                                                                                                   Page 11 0[2
                                                                                                                                   Page    of2




~
~

Minnesota DepartmentofofHuman
MinnesotaDepartment      Human Services
                               Servces - - - - - - - - - - - - ­

July 17,2008
July \7,2008


Mr. Patrick J.J, Cogley
Regional
Regional    Inspector General for Audit Services
u.S.   Department
U,S, Department    of ofHealth     Human Services
                        Health and Human
Office ofof Inspector General
Offce of
Office   ofAudi.t
            Audi.t Services
60 I East   121h Street,
      Eat 121h   Street, Room 284A
Kansas City,
Kansas    City,MOMO 64106
                       64\06

Re: Report Number A-07-07-01045
Re: Report        A-07-07-01045

Dear Mr. Cogley:

The Minnesota
     Minnesota Department
                 Departent ofofHuman
                                  HumanServices
                                           Services(MDHS)
                                                     (MDHS)has has reviewed
                                                                    reviewed the u.s.
                                                                                  U.8.Department
                                                                                         DepartmentofofHealth
                                                                                                         Health and
                                                                                                                 and Human
                                                                                                                     Human
Services, Office ofInspector
          Offce of   Inspector General
                                 General draft
                                          draft report
                                                report dated
                                                       dated June 20, 2008 and
                                                                             and entitled
                                                                                  entitled "Review ofof Improper
Temporary   Assistance
Temporary Assistance  for for Needy
                              NeedyFamilies
                                      Families  (TANF)Basic
                                             (TANF)Basic       Assistance
                                                          Assistance        Payments
                                                                      Payments               for April for April I, 2006
                                                                                        in Minnesota
                                                                               in Minnesota
Through
Through March
           March31,31,2007."
                         2007," ThisThis
                                     letterletter
                                           serves asserves
                                                      Minnesota's   response to theresponse
                                                              as Minnesota's        report. to the report. .•

Before addressing the report's specific
                                   specific recommendations,
                                             recommendations, IIwou.ld
                                                                    wou.ld like
                                                                            like to
                                                                                  to speak
                                                                                      speak toto aa more
                                                                                                    more general
                                                                                                           general concern
                                                                                                                     concern
Minnesota
Minnesota           with the seven
            shares With        seven other
                                      other states
                                             states being
                                                     being reviewed
                                                           reviewedunder
                                                                      underthis
                                                                              thisprocess
                                                                                    processregarding
                                                                                               regardingthe theestablishment
                                                                                                                 estalishment of of a
national payment error
                    e¡¡or rate
                           rate for the
                                    the TANF
                                        T ANF program.      Und.er TANF,
                                                 program, Under    TANF, states
                                                                             states noW havehave thetheflexibility   ofusing
                                                                                                        flexibility of  using
different eligibility criteria, budget methodologies, and sanction procedures to         to implement each state'sstate's strategy
                                                                                                                          strategy to
                                                                                                                                    to
          the self sufficiency
increase the       suffciency of of program
                                    program participants,
                                               participants. These
                                                              These vastly
                                                                     vastly differing
                                                                            differing policies
                                                                                          policies and processes
                                                                                                          processes seem to negate
any meaningful comparison
                  comparison of  ofstates
                                    states in the context of
                                                           ofaa natioiial
                                                                natiollal paymellt
                                                                          paymellt elTor
                                                                                       error rate.
                                                                                             rate.

We  donot
We do   notbelieve
            believea afocus
                       focusononpayment
                                  payment   accuracy
                                        accuracy      reflects
                                                  reflects  the the    of of the Personal Resl'onsibility
                                                                    goals
                                                                 goals                      Resl'onsibility and
                                                                                                            and Work
                                                                                                                Work
Opportunity   Reconciliation
Opportunity Reconciliation   ActAct (PRWORA),
                                  (PRWORA),         with
                                             with its    its focus
                                                      focus         on performance
                                                             on perfonnance                          jOb preparation, work
                                                                                     in theofareas ofjob
                                                                             in the areas
and ending dependence
             dependence 011     governmentbenefits.
                           011 government     benefits. Both PR    WORAand
                                                              PRWORA       andthe
                                                                                themore
                                                                                   morerecent
                                                                                          recent Deficit
                                                                                                  Deficit Reduction
                                                                                                          Reduction Act
                                                                                                                    Act of
                                                                                                                        or
2005 intentionally de-emphasize evaluating
                                     evaluating T   ANF from
                                                  TANF    from aa payment
                                                                   payment accuracy
                                                                            accuracy perspective
                                                                                       perspective in favor of employment
outcome measures,
          measures.

As a state racing
           facing a budget shortfall, we are also concerned with the cost effectiveness of this review for both the
federal
federal agency   andstates,
        agency and   states. The
                              Thecosts.
                                  costs of
                                        of the
                                           the current  methodology
                                               currnt methodology   to to both the I-HS
                                                                       both         I-IHS OIG
                                                                                           OIG and states are considerable,
                                                                                                               considerable.
States spend significant resources, not only on meeting the auditor's requests,
                                                                            requests, but
                                                                                       but also
                                                                                           also training
                                                                                                training the
                                                                                                         the auditors
                                                                                                             auditors on
                                                                                                                      on
specific state statutes, rules and policy; reviewing preliminary results;
                                                                     results; and,
                                                                              and, answering questions to help insure
                findings, We
accurate audit findings.    We do
                                do not
                                   not believe
                                       believe this is    effcient use
                                                    is an efficient use of
                                                                        oflimited
                                                                            limited government
                                                                                    government resources given the
limited
limited benefits.
        benefits.



Minnesota, along with the other seven states being reviewed, recognizes
                                                                recognizes HHS's responsibilities
                                                                                  responsibilities relative
                                                                                                    relative to
                                                                                                              to the
                                                                                                                  the
           Payments Infonnation
Improper Payments    Information Act but believes there are alternativeapproacbes
                                                             alternative;;pproaches that are more meaningful than
trying to measure TANF
                  T ANF payment
                           payment accuracy.
                                    accuracy. A December 3, 2007 letter from
                                                                           from the American Public
                                                                                               Public Human
Services
Services Association,
          Association, the National Association of
                                                 ofState
                                                    State TANF
                                                          T ANF Administrators, and the
                                                                                      the National A.ssociation
                                                                                                    A.ssociation for
Program   Information
Program Infonnation andand Performance
                        Perfonnance      Management
                                    Management                  an altemativereview
                                               outlinedoutlined an altemativereview methodology
                                                                                      methodology that would more   more


              P.O. Box 64998'
              P.O. Box        Saint Paul.
                       64998' Saint Paul. Minnesota'
                                          Minnesota' 55164-0998'
                                                      55164-0998'An
                                                                  AnEqual
                                                                     EqualOpportunity
                                                                          Opportunityand
                                                                                      and Veteran
                                                                                          Veteran Friendly
                                                                                                  Friendly Employer
                                                                                                           Employer
                                                                                                                            APPENDIXE
                                                                                                                            APPENDIX E

                                                                                                                               Page 22 of2
                                                                                                                               Page    of2




Mr.
Mr. Patrick J. Cogley
Page
Page 22

July 17,
     17, 2008


reasonably
reasonably and
             andappropriately
                 appropriately evaluate
                                 evaluateindividual
                                          individual state
                                                     stateprogram
                                                           prògramcompliance
                                                                   compliaiicewith
                                                                              with federal
                                                                                   federal requirements.  We ask
                                                                                            rcquirements, We
th.at you
th.at you consider
          consider this
                   this alternative methodology,
                                    methodology.

We provide the following responses, as requested, to address the three specific recommendations contained in the
draft report.

         Recommendation     - 1Use
         Recommendation # 1 #   - Use
                                   the the results
                                        results    ofthereview
                                                ofthereview       to help ensure compliance with federal and state
                                                             to help
         TANF    requirements
         T ANF requirements by by  reemphasizing
                                reemphasizing       to recipients
                                               to recipients  the the
                                                                  needneed to provide
                                                                       to provide     accurate
                                                                                  accurate      and timely information
                                                                                           and timely

         and requiring its employees to verify eligibility information and apply required sanctions.

         Minnesota response:
         Minnesota    response:Minnesota
                                   Minnesotaagrees
                                               agrees with
                                                       with the
                                                             the rccommendation.
                                                                 rccommelldation. An e-mail
                                                                                         e-mail from the T    ANF Director
                                                                                                           TANF
         was sent to the directors of
                                   of Minnesota's
                                      Minnes.ota's 8787 counties.  updating them
                                                        counties. updating   them on
                                                                                   on the
                                                                                       the results
                                                                                           results of
                                                                                                   of the
                                                                                                      the review.
                                                                                                          review. The
                                                                                                                    The
         overall
         overall lack
                 lack of
                       of documentation
                          documentation to  sl.!bstantiat.eease a~ions
                                         tosu.bstantiat.ecase    açtions was
                                                                         was brought   to their
                                                                              brought to  their attention
                                                                                                 attentionasasan
                                                                                                               anarea
                                                                                                                  ara of
                                                                                                                      of
         concern. Counties
                   Countieswere
                              wereasked
                                   asked to
                                          to review
                                              review MFlP
                                                     MFIP documentation
                                                              documentation requirements and insure they are being heing
         followed.

         Recommendation #2 - Determine the current eligibility of all
                                                                  all recipients identified in the review as
         improperly enrolled in the T ANF program
                                    TANF  program and
                                                  and ensure
                                                      ensure that
                                                              that further
                                                                   further assistance
                                                                           assistance is
                                                                                      is denied
                                                                                         denied for those who
         remain ineligible.

         Minnesota   response:
         Minnesota response:      Minnesota
                             Minnesota                        recommendation. Counties
                                       agrees agrees with the recommendation. Counties with
                                                                                       with cases cited with
                                                                                                        with
         paymenterrOrs
         payment errorshave
                        havebeen
                              been  notifiedofof the
                                 notifi.ed       the results
                                                     results so
                                                              so they
                                                                  they can
                                                                        can take     action,
                                                                             take appropriate
                                                                                     action.
                                                                                   appropriate


    .
    •    Recommendation #3
         Recommendation    #3 ­- Recalculate
                                 Recalculate assistance
                                             asistance payments
                                                        payments for
                                                                 for all recipients
                                                                         recipients identified in this review as
         having received improperly calculated payments.

         Minnesota response:
         Minnesota  response:Minnesota
                                Minnesotaagrees
                                            agreeswith
                                                     withthe
                                                          therecommendation.
                                                               recommendation. Counties
                                                                                  Counties with
                                                                                            with cases  cited with
                                                                                                  cases cited
         payment eITorS  have been
                 errorS have  been notified
                                   notified of
                                            of the
                                                the results
                                                    results so
                                                            so they
                                                                they can
                                                                     can take appropriate action.

Finally, the
Finally, tbe cover letter to the draft report indicates that within 10 business days of issuing Minnesota's
                                                                                                          Minnesota's final
                                                                                                                       final
report,
report, OIG   willpost
         OIG wil    postthe
                          the report
                              report on
                                      on the
                                         the Intertet.
                                             Internet. We     respectfully request
                                                          We respectfully   request that
                                                                                      that OIG  refrain from
                                                                                            OIG refrain       either publishing
                                                                                                        from either  publishing

and/or  posting information
and/or posting   informationononspecific
                                    specificstate
                                             statereviews
                                                     reviewstotothe            until the
                                                                 the Internet until  the entire eight state review process is is
complete             reports are finaL.
           andanallreports
complete and                             The re....iew
                                  final. The   reviewprocess
                                                        processwaswasconstructed
                                                                       constrcted with the "ultimate objective
                                                                                                         objective of
                                                                                                                    of
detennining a nationwide
                 nationwide payment
                               payment eITonate",
                                          erronate", which
                                                        which requires
                                                                requires that
                                                                         that all
                                                                              all eight state reviews be conducted and
completed in
completed    in order
                order toto establish
                           estblish that
                                     thatrate,
                                          rate, Posting
                                                 Postingaastate's
                                                             state'sresults
                                                                     resultswithout
                                                                             withoutthethelarger
                                                                                           largernationwide
                                                                                                  nationwidecontext
                                                                                                               context(the
                                                                                                                       (the stated
                                                                                                                             stated
purposeof
purpose   of the review) will be confusing and misleading
                                                      misleading to the public.

Minnesota remains committed to the
                               the goals
                                   goals of
                                         of the
                                            the T ANF program
                                                TANF  program and
                                                              and working
                                                                  working with
                                                                          with our
                                                                               our federal
                                                                                   federal partners to insure
those goals are
those goals are met.
                met.



Sincerely,


   0/ 1(. ~~
   Ol(·¢:~
Cal R,
    R. Ludeman
Commissioner


             P.O. Rox64998·
             P.O. Rox 64998. Saint
                             Saint Paul.
                                   Paul. Minnesora'
                                         Minnesora' 55/64-0998'  AnEqual
                                                    55/64-0998' An  Equal Opportunity
                                                                          Opportunity and
                                                                                      and VereranFriendly
                                                                                          Vereran.f'riendly Employer
                                                                                                            Employer
